<html>
<title> - 2017 HURRICANE SEASON: OVERSIGHT OF THE FEDERAL RESPONSE</title>
<body><pre>[Senate Hearing 115-391]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-391
 
        2017 HURRICANE SEASON: OVERSIGHT OF THE FEDERAL RESPONSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 31, 2017

                               __________

       Available via the World Wide Web: http://www.govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        





                          _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
29-658 PDF               WASHINGTON : 2018      
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
        Natalie F. Enclade, U.S. Department of Homeland Security
                  Office of Inspector General Detailee
               Margaret E. Daum, Minority Staff Director
                  Joel F. Walsh, Minority Investigator
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     4
    Senator Tester...............................................    20
    Senator Peters...............................................    23
    Senator Harris...............................................    26
    Senator Lankford.............................................    28
    Senator Heitkamp.............................................    31
    Senator Hassan...............................................    34
    Senator Daines...............................................    37
Prepared statements:
    Senator Johnson..............................................    45
    Senator Carper...............................................    46

                               WITNESSES
                       Tuesday, October 31, 2017

Honorable William B. ``Brock'' Long, Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................     7
Robert G. Salesses, Deputy Assistant Secretary of Defense for 
  Homeland Defense Integration and Defense Support of Civil 
  Authorities, U.S. Department of Defense........................     9
Major General Donald E. ``Ed'' Jackson, Deputy Commanding General 
  for Civil and Emergency Operations, U.S. Army Corps of 
  Engineers, U.S. Department of Defense..........................    11
Honorable Robert P. Kadlec, M.D., Assistant Secretary for 
  Preparedness and Response, U.S. Department of Health and Human 
  Services.......................................................    13

                     Alphabetical List of Witnesses

Jackson, Major General Donald E.:
    Testimony....................................................    11
    Joint prepared statement.....................................    61
Kadlec, Hon. Robert P. M.D.:
    Testimony....................................................    13
    Prepared statement...........................................    72
Long, Hon. William B.:
    Testimony....................................................     7
    Prepared statement...........................................    51
Salesses, Robert G.:
    Testimony....................................................     9
    Joint prepared statement.....................................    61

                                APPENDIX

FEMA Declarations chart..........................................    82
Senator Peters letter............................................    83
Senator Harris letter............................................    88
Statements submitted for the Record:
    American Federation of Government Employees..................    92
    Healthcare Ready.............................................    94
    National Association of Councils on Developmental 
      Disabilities...............................................   101
    Project on Government Oversight..............................   107
Responses to post-hearing questions for the Record:
    Mr. Long.....................................................   114
    Mr. Salesses.................................................   351
    Mr. Jackson..................................................   360
    Mr. Kadlec...................................................   430


        2017 HURRICANE SEASON: OVERSIGHT OF THE FEDERAL RESPONSE

                              ----------                              


                       TUESDAY, OCTOBER 31, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Hoeven, Daines, 
Carper, Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I would like to say, on the one hand, it is nice to see 
Senator Carper acting as my Ranking Member, but the 
circumstances are unfortunate, to say the least. Senator 
McCaskill's husband is in the Intensive Care Unit (ICU), and so 
Senator McCaskill is with him in Missouri. So. we certainly 
want to send them our thoughts and prayers, for Claire, for 
Joe, and for their family members as well.
    Senator Carper. I would just mention to our Chair, I texted 
with Claire last night to see how he is doing. Apparently, he 
had a massive heart attack, a very serious heart attack, and he 
had, I think it was, an internal defibrillator that may have 
saved his life. And, there are still blockages to worry about 
and I think some additional surgical work that needs to be 
done. So, to what the Chairman said, we will keep him in our 
thoughts and prayers.
    Chairman Johnson. Thank you.
    I also want to thank our witnesses, not only for being 
here, for your testimony, and for what you are about to answer 
in terms of our questions, but really for the last 2\1/2\ 
months. I have been to the Federal Emergency Management Agency 
(FEMA's) Response Center. I have talked to the men and women 
that are working with you, I think doing an extraordinary job, 
working 12-hour shifts, 7 days in a row, for literally weeks, 
months on end. So, this has been unprecedented starting back in 
late August with Hurricane Harvey and then Hurricane Irma and 
then Hurricane Maria within literally a span of 30 days. We 
just have not seen anything like this. And, I think it is 
pretty heartening, really, after Hurricane Katrina, the lessons 
learned, a lot of those lessons have been put into place and 
used to rather great effect. But, when you have hurricanes and 
disasters of this magnitude, you cannot just snap your fingers 
and make it all well again. This is going to be a recovery 
effort that is going to go on for years, but I think the 
response--and I think we will hear that in testimony today--has 
really been quite extraordinary. Nothing is ever perfect. You 
can always have continuous improvement. But, again, I think the 
men and women that work with you in all of your agencies really 
need to be commended, and I think in terms of your management 
of them, that also needs to be commended as well. So, again, I 
thank you, and I think this Committee thanks you as well.
    This will be what I consider the first in a series of 
hearings. It really from my standpoint started with the high-
risk hearing when I asked Inspector General (IG) Roth to take a 
look at the problems in FEMA grant lending, how we spend money 
in emergency situations, what kind of controls. And, Inspector 
General Roth responded very quickly, in a June 2nd, a letter to 
me made a number of recommendations which we have turned into a 
piece of draft legislation, working with Senator McCaskill, 
also Senator Daines, and anybody else on this Committee who 
wanted to start working with us on that. We have been talking 
to appropriators on how to potentially marry that with some of 
the emergency funding requests, the supplemental funding 
requests that we are passing here.
    We are spending a lot of money, and it needs to be 
controlled, and I think the issue with Whitefish--and I am sure 
we will get into that--is just Exhibit A of how careful we need 
to be in terms of how we spend the taxpayers' hard-earned 
money.
    I certainly see with Director Long's testimony, we do need 
to review and lay out FEMA's proper role within the emergency 
management response. It is a subordinate role. If we can quick 
put up the chart\1\ there. Everybody has this as well. This is 
just a history that was put together I think by the Heritage 
Foundation. It only goes up to 2011. It just shows the history 
of FEMA declarations of emergencies, and it is really striking. 
Back in the 1950s, there were somewhere between 7 and 18 a 
year. In 2011, a high watermark, 242 Federal disaster 
declarations or FEMA declarations.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 82.
---------------------------------------------------------------------------
    There are a number of reasons for that. Certainly, we 
continue to build. We have that moral hazard. We continue to 
build and rebuild in flood zones and hurricane zones, and 
property values are increasing dramatically. But, also, I think 
more and more often States are looking to the Federal 
Government to do what I believe was probably more suited toward 
State and local response. As a result, it puts a great deal of 
stress on Federal disaster resources and certainly FEMA, and I 
am sure, Director Long, you have felt some of that pressure 
over the last couple days.
    So, I think it is appropriate for this Committee long term 
to really take a look at what is the proper balance between 
State and local response and the Federal response in these 
situations. From my standpoint, as much as we can rely on the 
State in terms of preparation, standing up those emergency 
centers and the response before these disasters occur, the 
better off we are all going to be. So, I want to make sure we 
are talking a little bit about that during the hearing.
    I did go down to Puerto Rico. I was down there on the 7th, 
about 2\1/2\ weeks afterwards. I will say that my initial 
response, having flown over in a low-flying helicopter about a 
quarter or a third of the island, I was first relieved that the 
property damage was not as extensive as I was expecting it to 
be. Now, there is no doubt about it, there is devastation. 
There is property totally destroyed. But, I had seen pictures 
of St. Martin. And then, just the basic stats, 2\1/2\ weeks, 22 
of the 23 ports have been opened. More than 70 percent of both 
gas stations and grocery stores were already open. A third of 
the roads were open. But, as we flew over, it looked like in 
excess of 90 percent were clear, but obviously blocked at 
certain choke points.
    Cell phone companies responded pretty appropriately, kind 
of shared the burden, cordoned off the island, fixed each 
other's towers. So, it will be interesting to hear what percent 
the cell phone service is back and operational. All 78 of the 
municipalities back then were already accessible by road, so 
the logistics problem was being eased. But, the biggest problem 
at that point in time was only 12 percent of the electrical 
power had been brought back online.
    So, I returned convinced and I think I continue to be 
convinced that the primary problem long term now with Puerto 
Rico, and even before the disaster, was the power grid. It was 
weak. It was fragile before the hurricane, and now it is 
offline, and it is a very complex problem trying to reestablish 
and maintain the balance of the electrical grid. And, we are 
going to be spending an awful lot of money, and from my 
standpoint that has to be controlled. And, what money we spend 
hopefully can be spent in a manner that we create a more 
resilient electrical grid that will power a vibrant economy in 
Puerto Rico for generations to come.
    My last point is I have been in contact with the Chairman 
of the Financial Oversight and Management Board, and I just 
received an email or a text from him last night. They met, and 
I am just going to quick read you the text that I will enter 
into the record: ``The Federal Oversight Board unanimously has 
asked for a chief transformation officer to take over the 
administration of the power authority in order to reestablish 
power as quickly as possible. But, moreover, we must transform 
the energy sector and ensure lower-cost, more reliable power. 
In order to do that, we have to de-politicize the authority, 
open it up to competition in order to attract private capital. 
Puerto Rico does not want to return to D.C. with hat in hand in 
the future. The person the Board has named is a retired Air 
Force colonel who has organizational and transformational 
experience, including management of energy and infrastructure 
projects.'' That was signed by Jose Carrion, the Chairman of 
the Financial Oversight and Management Board. So, they 
recognize the fact that we have a real problem with the 
governance of, the public ownership of Puerto Rico Electric 
Power Authority (PREPA), and, again, that was Exhibit A based 
on that $300 million contract, which apparently now has been 
pulled back with Whitefish.
    But, again, I just want to thank the witnesses, and I will 
turn it over to Senator Carper for any opening statement he 
wants to make.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you so much. Thank you for bringing 
us together, Mr. Chairman. I know a couple of weeks ago Senator 
McCaskill had called for a bipartisan investigation, scheduling 
a series of hearings. I am delighted to hear that this is not 
the last but the first of several.
    I want to express as well our thanks and appreciation to 
those at the table before us, those who work with you, for you, 
for the extraordinary work they are doing.
    I believe that in the last 100 years or so, we have had a 
total of 33 Category 5 hurricanes that have struck the United 
States, 33 in 100 years, and we had literally 2 within weeks of 
each other this year. Our friends at the Government 
Accountability Office (GAO) present to each year, as you will 
recall, a High-Risk List about every other year, beginning of 
each Congress, of things that we need to focus on, ways that if 
we did we could save some money. They for years have now been 
saying one of our high risks is the incidence of extreme 
weather and the costs that it is imposing on the Federal 
budget, and the cost here is just extraordinary. And, I think 
in terms of root causes, we need to keep that in mind.
    I am delighted to hear the Chairman mentioned the electric 
grid in Puerto Rico. I oftentimes quote Albert Einstein, who 
said famously, ``In adversity lies opportunity.'' And, as bad 
as the adversity here is, there is also opportunity, especially 
with respect to the electric grid. Most of the people, as I 
understand--I have been to Puerto Rico a number of times, as a 
naval flight officer (NFO) operating out of Roosevelt Roads, as 
a Governor hosted by Pedro Rossello when he was Governor, part 
of the National Governors Association (NGA), and just as a 
family vacation, and was around the island a fair amount. And, 
my recollection is that most of the power is generated in the 
south of the island. Most of the people live in the north of 
the island. Most of the power is generated from diesel power 
generators and utilities. And it is dirty, it is expensive. The 
cost for electricity in Puerto Rico I am told is roughly twice 
what we pay here in the Mainland. And, they have an 
opportunity. I talked with Governor Rossello yesterday, who I 
remember when he was basically a teenager. His Dad and I were 
contemporaries together in the National Governors Association. 
But we talked about his vision, and his vision would be to move 
power generation from the south to the north where the people 
are so they do not have to transmit all that electricity from 
one side of the island to the other, and not only to use 
natural gas, bring down the costs. And right now, the diesel 
fuel comes, I think, mostly from South America, including 
Venezuela. And, we are not sure that that is a good place to be 
dependent on. And, the idea of having the ability of large 
ships to come in with natural gas to the north, to have power 
generation there, and to also--the Governor said to me his goal 
in time is to step up, increase their generation of electricity 
from renewables, including solar and wind and others, maybe 
including distributed generation of electricity and things like 
fuel cell-powered generators for electricity, especially to 
help in hospitals and places like that.
    I want to go back to my prepared comments here, if I could. 
I am proud of our Delaware National Guard. We have had Delaware 
National Guard units deployed to Texas, to Florida, to Puerto 
Rico, and the U.S. Virgin Islands (USVI), and we are grateful 
to the men and women, not just of the Delaware National Guard 
but National Guards all over this part of the country that are 
part of this team effort.
    Mr. Chairman, I hope that in the very near future we can 
actually have the Governors of Texas, Florida, Puerto Rico, and 
the Virgin Islands before us so that we can hear their 
perspectives on what worked well, what did not, how we could be 
more helpful, and maybe even include some mayors. Sometimes we 
do not want to always hear from people who are going to be 
critical, but we need to hear folks that are critical as well 
as people who think that a good job has been done. I always 
like to say if it is not perfect, make it better, and I think 
if we could hear from Governors--and I am sure you have this in 
mind--and some other leaders, that would be helpful.
    I think we are at the beginning of a very long and 
difficult rebuilding effort. The cost of the devastation 
wrought by these hurricanes may well exceed $300 billion--more 
than double the total economic damage of both Hurricanes 
Katrina and Rita in 2005. We must ensure that the Federal 
Government is meeting the needs of the survivors of these 
disasters and, at the same time, ensure that Federal funds, as 
the Chairman has said, are being used efficiently and 
effectively. Every dollar wasted is a dollar that will not be 
available to help other Americans who are still in need.
    We have already started to hear of allegations of 
programmatic mismanagement and questionable contracts. I am 
going to just talk about this anyway. It has been discussed 
quite a bit. I do not think it can be discussed too much. A lot 
of us were shocked to learn of the $300 million contract to 
repair the electric grid that was awarded by the PREPA, to 
Whitefish Energy. And as you know, a company with two full-time 
employees that has only existed for 2 years ends up getting a 
$300 million contract, heaven help us. That is just 
unbelievable.
    I cannot overstate the urgent need for action to quickly 
restore power, repair homes and other structures, as well as 
ensure the availability of safe and clean drinking water for 
all citizens of the United States.
    I talked about electric generation. I will not go into that 
further. I am looking forward to going down--I think Senator 
Murkowski is going to lead a delegation maybe as early as this 
weekend. I hope that is going to come together, and I would 
love to be a part of that with her. They have a fair amount of 
jurisdiction over this, as does this Committee, as does 
Environment and Public Works (EPW), where I serve as well.
    I would finally just say I understand the time under which 
people can actually apply for individual assistance has been 
extended maybe to March. Can somebody nod their head on that, 
if that is correct? I think I heard something--OK. If you would 
address that when you speak, that would be great. Yes, it says 
right here: ``FEMA last night extended the deadline to March.'' 
We are happy to hear of that.
    Mr. Chairman, in closing, I just want to say a few words 
about the obligation that our Federal Government has to help 
rebuild when disasters strike our country, any part of our 
country. When extreme weather like this hits, it is scary, it 
is dangerous, and it is often far more powerful than we 
imagined it would be. For those of us who have not had the 
misfortune of living in the path of the worst destruction, it 
is hard to imagine. I have ridden out hurricanes in a Navy 
destroyer off the coast, the Atlantic coast. I have flown into 
monsoons in our Navy P-3 airplanes out in the Pacific Ocean. I 
got run over by Hurricane Katrina with a bunch of Boy Scouts on 
a sailboat coming down the coast of Florida during that storm. 
So, I have had a little bit of a taste of this stuff. It is 
scary as can be.
    But, for the people whose reality has become a nightmare, 
they just want to know that there is a path to a better and a 
safer future. Clearing that path is a shared responsibility, 
though. The residents of Puerto Rico and their leaders, their 
Governor and others, must do their part, but our Federal 
Government has a moral obligation to help as well. Like the 
folks at Home Depot like to say, ``You can do it, we can 
help.'' And, that I think applies here, too. And, keeping with 
the spirit of the Golden Rule, let us continue to make sure 
that we do just that.
    Thank you so much.
    Chairman Johnson. Thank you, Senator Carper.
    I would like my full my written statement, entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Senator Carper. And, if I could make a similar request,\2\ 
please. Thank you.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Carper appears in the 
Appendix on page 46.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand? 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Long. I do.
    Mr. Salesses. I do.
    General Jackson. I do.
    Dr. Kadlec. I do.
    Chairman Johnson. Please be seated.
    Our first witness is Brock Long. Mr. Long is the 
Administrator of the Federal Emergency Management Agency. In 
this role he leads FEMA's workforce to fulfill its mission in 
responding to natural disasters and emergencies facing the 
United States, including the recent hurricanes, Harvey, Irma, 
and Maria. Mr. Long, I do not know how long you were on the job 
before Hurricane Harvey hit, but, again, I just want to thank 
you for what I think is just extraordinary service over the 
last 2\1/2\ months.

   TESTIMONY OF THE HONORABLE WILLIAM B. ``BROCK'' LONG,\1\ 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Long. Thank you, Senator. Before I get started, I would 
like to say that my thoughts and prayers are with Ranking 
Member McCaskill and her husband.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Long appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    Chairman Johnson, Senator Carper, as well as the 
distinguished Members of this Committee, it is a pleasure to be 
here today. It truly has been unprecedented, and I am here to 
discuss anything you would like to regarding the response and 
recovery efforts that my staff has helped to coordinate across 
the Federal partnership when it comes to all the Agencies that 
have been involved.
    Like me, what I have seen inside my Agency is that I work 
every day with people who are truly dedicated, that truly come 
to work every day that want to save lives and help people get 
on the pathway to recovery as well as become more resilient.
    I have been in office 132 days. For 70 of those days, we 
have been actively responding to Hurricanes Harvey, Irma, 
Maria, and the extraordinary California wildfires as well. Each 
one of these events that I just spoke of could truly be 
catastrophic events, stand-alone events, but they happened in 
rapid succession in a 25-day period, which is obviously 
unprecedented.
    Chairman Johnson, in regards to this, I think it is 
important to point out that before Hurricane Harvey hit, FEMA 
was responding to over 30 different disasters across the Nation 
in many States that you folks represent, and in addition to 
those major disaster declarations, we were also responding to 
over 50 different fire management assistance grant declarations 
due to the wildfires that are taking place.
    Now, there are many improvements to be made to ensure a 
whole community response and that the National Incident 
Management System continues to grow in a positive way, I do 
recognize that there are many challenges ahead, particularly 
when it comes to California, Texas, Florida, as well as the 
Virgin Islands and Puerto Rico.
    I want to put a couple of things into context about the 
magnitude of this most recent response. If you start with 
Hurricane Harvey all the way over to the California wildfires, 
over 25 million Americans have been impacted--that is 8 percent 
of the population--in basically a 2-month period or, a 50-day 
time period. The FEMA search and rescue teams alone saved over 
9,000 lives. That is in addition to our Department of Defense 
(DOD) partners, Coast Guard partners, State and local partners, 
first responders, neighbors helping neighbors like the Cajun 
Navy coming from Louisiana over to Houston. Tens of thousands 
of lives have been saved.
    Over 4.5 million Americans have been registered inside 
FEMA's Individual Assistance Program. To put that number in 
context, that is greater than Hurricane Katrina, Hurricane 
Sandy, Hurricane Wilma, and Hurricane Rita combined. It is the 
fastest we have ever put people into our systems, and we have 
put over $2.5 billion in the hands of citizens across the 
country to start that road to recovery. We cannot make you 
whole, but we can actually serve as a catalyst to help you 
recover.
    Over $3.5 billion was expedited in our National Flood 
Insurance Program (NFIP) immediately to our policy holders. 
That number is projected to grow to $16 or $17 billion just for 
Hurricanes Harvey and Irma alone.
    Since the onset of Hurricane Harvey on August 25, the 
Nation has worked together with our mass care partners--Red 
Cross, State and local partners--to shelter over 1.1 million 
Americans in congregate shelters. The peak population in one 
night was 200,000. That is unprecedented. We have not had 
numbers like that ever before.
    I also have reason to believe that the commodity mission 
and the humanitarian mission to Puerto Rico and the Virgin 
Islands, as well as all of the States, has been one of the 
largest humanitarian missions in the history of FEMA.
    Now, while there are existing response and recovery 
challenges that need to be addressed, I think Chairman Johnson, 
in regards to your opening comments, it is important to point 
out that an optimal response and recovery process should be 
federally supported, State managed, and locally executed. Each 
level of government has a very critical role to play, and we 
have to continue to define what the responsibilities are and 
what the target capabilities should be.
    In the case of Puerto Rico, they were hit by two major 
hurricanes in rapid succession which created the diminished 
capacity. Not only were their responders now disaster 
survivors, but also the ability to respond was also 
compromised. That puts FEMA as the primary responder and pretty 
much the first responder, which is never a good situation. When 
FEMA is the first and primary responder and the only responder 
for many weeks, we are never going to move as fast as anybody 
would like, and I recognize that.
    Moving forward, we continue to work every day to restore 
the power. Particularly in Puerto Rico and the Virgin Islands, 
restoring the power solves a multitude of problems, and it is 
going to require our partners at the Army Corps working hand in 
glove with Governor Rossello, who I talk to on a very regular 
basis. We have to restore the hospitals and medical functions 
to pre-disaster conditions and consider how to make them more 
resilient in the future.
    Each one of the disaster housing missions is going to be 
unique, from California all the way to the Virgin Islands, and 
we are working to rectify those issues every day. Clearing 
roads, fixing roads, getting rid of debris is also a major 
mission. There are 3.5 million cubic yards of debris on Puerto 
Rico alone.
    Communications and cell service is something else. I 
believe we are up to about 85 percent, for example, on Puerto 
Rico. The retail industry is back up to about 90 percent. The 
water systems are back up to about 80 percent. So, progress is 
being made, but we have a long way to go.
    I have not had a chance to catch my breath, and do an 
exhaustive after-action review of all the things that just 
happened and what we have learned or where we should go, but I 
do have several ideas. I think as a community we have to 
streamline disaster recovery programs that are offered from 
across the Federal Government. We have to simplify them, 
streamline them, make them easy to understand, and help our 
State and local partners understand when to use these things. I 
will be asking for your help to do that.
    We have to implement and ensure survivable communications. 
We have to work with the private industry to make sure that, as 
we become more and more attached to our cell phones, the 
systems that are being implemented are resilient and redundant.
    We have to do more pre-disaster mitigation. Pre-disaster 
mitigation is the key to becoming more resilient and reducing 
disaster impacts.
    We have to ensure State and local governments, Texas and 
Florida are the examples, have their own life sustainment 
commodity capabilities and that the Federal Government is not 
shouldering the entire burden.
    We have to find low-to no-cost ways to prepare our citizens 
and help our citizens be properly insured. Insurance is the 
first line of defense, and those who are insured will recover 
quicker than those that do not have insurance.
    We have to ensure that States have baseline level 
capabilities, that States have their own baseline capabilities 
to handle individual assistance and public assistance when 
Federal disaster declarations are not coming to town. And, we 
also have to do a lot of work to fix the NFIP program.
    These are just some of the things that we have to work on 
and a multitude of other several more ideas that I have. I am 
honored to be here and answer your questions today. Thank you.
    Chairman Johnson. Thank you, Mr. Long.
    Our next witness is Robert Salesses. Mr. Salesses is the 
Deputy Assistant Secretary of Defense for Homeland Defense 
Integration and Defense Support of Civil Authorities. In this 
role he is responsible for the development of policy for 
defense support of civil authorities and homeland security 
interagency coordination. Mr. Salesses.

TESTIMONY OF ROBERT G. SALESSES,\1\ DEPUTY ASSISTANT SECRETARY 
OF DEFENSE FOR HOMELAND DEFENSE INTEGRATION AND DEFENSE SUPPORT 
        OF CIVIL AUTHORITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Salesses. Thank you, Chairman Johnson, Senator Carper, 
distinguished Members of the Committee. Thank you for the 
opportunity to testify on the Department of Defense's support 
of the Federal response to Hurricanes Harvey, Irma, and Maria.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Salesses appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    The Defense Department is a fully committed and critical 
partner in the national response system. DOD has a long 
tradition of working with our Federal, State, and local 
partners in responding to domestic disasters and emergencies. 
Led by Administrator Long and FEMA, DOD plays a key role in the 
Federal Government's support to State and local disasters. We 
also support other Federal partners and departments such as 
Health and Human Services (HHS), Department of Transportation 
(DOT), and Department of Energy (DOE) in their role as 
emergency support function leads.
    DOD is well prepared and has forces and capabilities ready 
to act immediately to sustain lives in the aftermath of 
disasters. DOD ensures a high level of preparedness by 
continually enhancing our integrated planning, improving our 
training, and conducting joint exercises between our Federal, 
State, and local partners.
    In advance of each of these hurricanes, the Secretary of 
Defense directed DOD to provide full support to life-saving, 
life-sustaining operations in coordination with our Federal 
partners. Based on this direction, DOD postured significant 
capabilities--Navy ships, strategic airlift helicopters, 
medical teams, and logistics--prior to each of the hurricanes' 
landfall to assist the citizens of Texas, Florida, Puerto Rico, 
and the U.S. Virgin Islands.
    To date, the Defense Department has responded to over 311 
mission assignments from FEMA and our other Federal partners. 
Using the total force in its response, thousands of Army, Navy, 
Air Force, and Marine, Active, Reserve, and Guard have 
responded to these hurricanes.
    Under the command of General Robinson, Federal forces 
conducted search and rescue, evacuation operations, provided 
damage assessments, surveyed and made repairs to open airports 
and seaports, cleared critical roadways, transported life-
sustaining commodities of food and water, provided fuel 
distribution, conducted assessments of civilian hospitals, and 
provided medical support to include evacuating patients back to 
the continental United States.
    Additionally, U.S. Transportation Command (USTRANSCOM) has 
flown over 2,800 flights over the last 60 days in support of 
these hurricane operations, with over 1,900 flights in support 
of Puerto Rico and the U.S. Virgin Islands, transporting urgent 
first responders like FEMA's Urban Search and Rescue Teams 
(USAR), HHS' Disaster Medical Teams, relief supplies and 
equipment, and evacuating hundreds of residents and patients.
    The Defense Logistics Agency (DLA) has provided millions of 
gallons of fuel, over 850 generators, more than 100 million 
meals, and millions of liters of water and life-sustaining 
commodities.
    The U.S. Army Corps of Engineers (USACE) conducted flood 
mitigation operations in Houston and Puerto Rico, conducted 
maritime port surveys and openings along with the U.S. Coast 
Guard (USCG), installed temporary roofs to enable people to 
stay in their homes, provided temporary emergency power to over 
550 critical facilities--these included hospitals, fire 
stations, police stations, and other municipal buildings--and, 
more significantly, continues to work to restore Puerto Rico's 
electric grid to its pre-storm status, a new and unique mission 
for the Corps of Engineers in its role under the Stafford Act.
    Our military services at the installation level also 
provided critical transportation, logistics, and medical 
services to local officials and their communities under 
immediate response authority. And, thousands of Army and Air 
National Guard personnel working with the respective Governors 
from the affected States and the supporting States conducted 
search and rescue, evacuation operations, commodities 
distribution, and other critical support operations. The men 
and women of the Defense Department, military and civilian, 
were ready and acted with a great sense of urgency in 
responding to Hurricanes Harvey, Irma, and Maria.
    Chairman Johnson, Senator Carper, and distinguished Members 
of the Committee, thank you for the opportunity to appear 
today. I look forward to your questions.
    Chairman Johnson. Thank you, Secretary Salesses.
    Our next witness is Major General Donald Jackson. General 
Jackson is the Deputy Commanding General for Civil and 
Emergency Operations for the U.S. Army Corps of Engineers. 
General Jackson oversees the work of the Army Corps in 
responding to major disasters such as the major hurricanes that 
recently hit the United States. General Jackson.

TESTIMONY OF MAJOR GENERAL DONALD E. ``ED'' JACKSON,\1\ DEPUTY 
  COMMANDING GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, U.S. 
      ARMY CORPS OF ENGINEERS, U.S. DEPARTMENT OF DEFENSE

    General Jackson. Chairman Johnson, Senator Carper, and 
distinguished Members of the Committee, my name is Major 
General Ed Jackson, Deputy Commanding General for Civil and 
Emergency Operations, U.S. Army Corps of Engineers. Thank you 
for the opportunity to testify today.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Jackson appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    The Corps conducts emergency response activities under two 
basic authorities: the Stafford Act and Public Law (P.L.) 84-
99. Under the Stafford Act, we support FEMA under the National 
Response Framework as the lead Federal agency for Emergency 
Support Function (ESF) #3, Public Works and Engineering. ESF #3 
provides temporary emergency power, temporary roofing, debris 
management, infrastructure assessment, critical public facility 
restoration, and temporary housing.
    Under Public Law 84-99, we prepare for disasters through 
planning, coordination, and training with local, State, and 
Federal partners. We assist State and local entities to support 
advance measures that prevent or reduce storm event damages, 
and we repair damage to authorized Federal projects and work 
with States and municipalities to rehabilitate and restore 
eligible non-Federal flood infrastructure to pre-storm 
condition.
    When disasters occur, Corps teams and other resources are 
mobilized from across the command to assist local offices with 
their response to the event. As part of this mission, the Corps 
has more than 50 specially trained teams supported by emergency 
contracts that perform a wide range of public works and 
engineering-related support functions that I just described.
    The Corps uses pre-awarded contracts that can be quickly 
activated for missions such as debris removal, temporary 
roofing, and generator installation. This year, the Corps 
supported FEMA-led Federal response and recovery operations in 
support of multiple events, including Hurricanes Harvey, Irma, 
and Maria.
    FEMA directed 37 mission assignments to the Corps to assist 
in Hurricane Harvey response and recovery. Currently, the Corps 
has 183 employees still deployed. The Corps assisted in 
temporary emergency power and continues to support the State of 
Texas with the development and implementation of a temporary 
housing project management plan. Debris teams led by Corps 
subject matter experts continue providing State and local 
municipalities with debris technical assistance to define 
requirements and monitor debris removal and disposal operations 
in 15 counties.
    FEMA directed 81 mission assignments to the Corps to assist 
in Hurricanes Irma and Maria response and recovery. Currently, 
the Corps has over 1,500 personnel deployed. As of this 
morning, the Corps has completed about 1,000 assessments and 
550 temporary generator installations across the Caribbean. 
This includes about 250 assessments and 150 generator 
installations in the U.S. Virgin Islands and 750 assessments 
and 400 generator installations in Puerto Rico. Under FEMA 
authority, we are also assisting Puerto Rico with operation and 
maintenance of critical non-Federal generators across the 
island.
    The Corps has completed over 13,000 temporary roofing 
installations in Florida and is on track to complete the 
mission by November 3rd. We also have completed over 6,000 
temporary roofing installations across the Caribbean, including 
over 2,000 in the U.S. Virgin Islands and 4,000 in Puerto Rico. 
Roofing requirements in both the U.S. Virgin Islands and Puerto 
Rico have been extensive, requiring additional material and 
construction support which initially slowed progress. We have 
adjusted, added capacity, and are now seeing daily improvements 
in both locations.
    Corps debris subject matter experts provided technical 
assistance to counties across Florida and Georgia in response 
to Hurricane Irma and continue to provide oversight to five 
regions within the Florida Department of Emergency Management. 
The Corps is working to remove an estimated 1 million cubic 
yards of debris from the U.S. Virgin Island and 6 million cubic 
yards of debris in Puerto Rico.
    The Corps worked closely with the U.S. Coast Guard, the 
National Oceanic and Atmospheric Administration (NOAA), and 
local authorities to open harbors and navigation channels 
across all affected areas critical to restoring commerce and 
allowing the flow of commodities and essential equipment to 
reach affected communities. The Corps worked closely with 
officials in Texas and Florida to manage local flood control 
reservoirs during periods of unprecedented rainfall. In Puerto 
Rico, Corps dam and levee teams inspected 17 priority dams and 
worked closely with the Puerto Rico Electric Power Authority to 
stabilize a spillway failure at Guajataca Dam. Additionally, 
the Corps teams cleared existing outflow conduits and placed 
emergency pumps to further reduce water levels in the dam yet 
restore flow to a critical treatment plant that supports the 
needs of over 30,000 people.
    On September 30th, the Corps was given a FEMA mission 
assignment under Stafford Act authority to assist the Puerto 
Rico Electric Power Authority in conducting emergency repairs 
to the power grid itself. The Corps is partnering with PREPA in 
this effort and has established a General Officer and senior 
executive-led task force as well as three area offices on the 
island to oversee work and provide technical assistance. The 
Department of Energy has embedded experts in our team and 
continues to assist in our efforts.
    Within 2 weeks of receiving the mission assignment, the 
Corps awarded contracts for large-scale temporary power 
generation to stabilize the grid in San Juan and for additional 
line repair assets that will assist ongoing efforts by PREPA to 
complete the mission as quickly as possible.
    The Corps remains fully committed and capable of executing 
its own civil works activities across the Nation despite our 
heavy involvement in these ongoing response and recovery 
operations. We also remain ready and poised to assist any 
future events as they may occur.
    This concludes my testimony, and I look forward to 
answering any questions you might have. Thank you.
    Chairman Johnson. Thank you, General Jackson.
    Our final witness is Dr. Robert Kadlec. Dr. Kadlec is the 
Assistant Secretary for Preparedness and Response (ASPR) at the 
Department of Health and Human Services. Dr. Kadlec coordinates 
the Department's medical assistance after a major disaster, 
including sending teams and medical professionals to affected 
areas and working with local hospitals. Dr. Kadlec.

TESTIMONY OF THE HONORABLE ROBERT P. KADLEC, M.D.,\1\ ASSISTANT 
  SECRETARY FOR PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Dr. Kadlec. Thank you very much, Chairman Johnson, Senator 
Carper, and Members of the Committee. It is a privilege to 
appear before you to discuss our Nation's medical and public 
health response, as Director Long identified, an unprecedented 
series of Category 4 and 5 hurricanes that have hit the U.S. 
Mainland and its territories this season. HHS as well as our 
interagency partners, FEMA, Department of Homeland Security 
(DHS), Veterans Affairs (VA), and DOD have pushed many 
organizational and historical boundaries to save lives and 
support the communities and people impacted by these storms.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kadlec appears in the Appendix on 
page 72.
---------------------------------------------------------------------------
    I fully recognize there are regions in Puerto Rico and the 
Virgin Islands where people are still facing dire conditions. I 
saw the devastation firsthand and can assure you that HHS 
continues our response at 110 percent effort and will continue 
to work as hard as we can until the conditions improve and we 
can bring people back to recovery.
    Since this is my first time testifying before this 
Committee, I will just begin with a brief description of this 
position called ASPR. Sir, in response to your comments, Mr. 
Chairman, about Hurricane Katrina, the ASPR was created almost 
11 years ago in response to Hurricane Katrina by the Pandemic 
and All-Hazards Preparedness Act. Its objective was simple: to 
create ``unity of command'' by consolidating all of HHS public 
health and medical preparedness and response functions under 
one person. I had the privilege of being the Staff Director of 
the Senate subcommittee that drafted this legislation.
    ASPR's mission is to save lives and protect America from 
health security threats. On behalf of HHS, ASPR leads public 
health and medical response to disasters and emergencies in 
accordance with the National Response Framework and Emergency 
Support Function #8, which includes all our Federal partners 
that are here seated at this dais.
    Today the threats facing our country are increasingly 
diverse and more lethal. My main objective is to improve 
national readiness and response capabilities for the 21st 
Century threats, and I am doing that through four key priority 
efforts: strong leadership; creating a national disaster health 
care system, as Director Long identified, that is more 
resilient and capable to the challenges that we face in the 
future; sustain robust and reliable public health security 
capabilities that, again, reside at the State and local level 
and, again, are the backbone of any response to any future 
disaster circumstance; and then, last, advance an innovative 
medical countermeasure enterprise.
    During Hurricanes Harvey, Irma, Marie, and Nate, their 
severity and near simultaneity created unique challenges, 
especially in Puerto Rico where no place, no person, no life 
was untouched. During my trip there, I was overwhelmed by the 
resilience of our fellow citizens who are making do in 
extraordinarily difficult situations that continue to improve 
over time because of the extraordinary efforts of the people 
and the people in the agencies that are represented here today.
    Our response strategy for health emergencies has been 
three-fold:
    First, save lives, principally through the deployment of 
our disaster medical assistance teams. You should be proud to 
know that I met with your fellow citizens from your States 
during my trips down to Florida, Texas, and to Puerto Rico, 
where folks from Oklahoma, from Wisconsin, from Delaware, and 
from New Hampshire were aiding their fellow citizens firsthand.
    Second is to stabilize the health care system, ensuring 
with FEMA such very important activities such as uninterrupted 
fuel supplies, potable water supplies, could be delivered to 
not only hospitals but to dialysis clinics to ensure that these 
vital systems stayed in place.
    And, last, restore health care services that need to be 
recovered to pre-disaster levels.
    In Puerto Rico, frankly, we are still responding. In other 
areas recovery is underway. In order to save lives, as I 
mentioned, ASPR activated the National Disaster Medical System 
and deployed more than 2,900 medical personnel from 21 States 
and hundreds of other Federal employees, including U.S. Public 
Health Service Commission core personnel.
    For each of these storms, we deployed teams even before the 
hurricanes made landfall so they were ready to respond 
immediately once the storm passed. In total, we have cared for 
more than 22,000 patients in affected States and territories, 
12,400 in Puerto Rico alone, and sent 950 tons of medical 
equipment and supplies to these affected areas.
    I am happy to answer any questions you may have, and thank 
you again for the opportunity to appear before you today.
    Chairman Johnson. Thank you, Dr. Kadlec.
    I would like to start with Administrator Long. Mr. Long, 
you talked about you are in a real kind of danger zone when 
FEMA is in charge of first responding, when you are no longer 
subordinate but you are leading the whole effort. Can you just 
describe really how it is all supposed to work and why that is 
a problem?
    Mr. Long. Sure. So, if you look at the Stafford Act, the 
Stafford Act is designed to support State and local efforts. 
And, the way disaster declarations work is that when a local 
government's capacity has been exceeded, they call upon county-
to-county mutual aid first or other mutual aid agreements to 
see if they can mitigate the disaster and the response.
    If that is not an option or if that is not working or the 
capacity has further been expanded, then they will call upon 
the State. The Governor will issue a State of emergency, and 
then the State will try to rectify as much as they can of the 
disaster. And then, once that has been exhausted or the State 
recognizes that it is beyond their capacity, they call upon the 
Federal Government, and we begin to mobilize.
    In many cases, you have seen the National Incident 
Management System in the whole community work, and the 
successful model was in Texas, it was in Florida, and it is now 
in California. While everything never runs perfect, for the 
most part it is operating as it should.
    What we have to do in regards to Puerto Rico, Virgin 
Islands, and other island territories is to ensure that they 
have the management infrastructure in place at both the State 
and the local level, and that we can also make sure that we 
have survivable communications. Anytime we lose communications 
and completely black out like we did in Puerto Rico, it is hard 
to obtain situational awareness and fully understand what the 
true response and recovery needs are.
    Chairman Johnson. You have only been on the job for 132 
days, but I guess who is keeping track? Apparently you are. 
But, you have been involved in disaster response for many 
years. Has there been a shift, have we created moral hazard? Is 
there a growing reliance on the Federal Government being that 
first responder and being primarily responsible as opposed to 
being subordinate?
    Mr. Long. That is a great question. I believe that would be 
in pockets. Some of the States are very capable States, and 
then there are some States where I believe, for example, maybe 
we need to take a look at which States actually have rainy-day 
funds and actually have mechanisms to be able to implement 
their own individual and public assistance programs when 
Federal disaster assistance is not coming.
    I also believe that many States or several States have 
their own ability to run life-saving commodity capabilities. 
They have the ability to handle the first 72 to 120 hours, 
where other States or island territories have not addressed 
those issues. And so, I think we do have to go back and 
reestablish with our State and local partners what is the 
baseline effort that should be there and clearly put forward 
those capabilities to make sure that we are prepared to 
backfill.
    One of the things I want to do is I want to develop State 
integration teams. I want to move beyond my regional offices 
that I have and put full-time staff in with the State agencies 
and island territories to make sure that we are truly doing 
real integrated planning on a daily basis, that FEMA is a part 
of the conversation every day so that we fully understand how 
to support all Governors when called upon directly.
    Chairman Johnson. That might be a pretty good action item 
here, when you have time go back and really do a State-by-
State, territory-by-territory assessment in terms of their 
emergency management system, whether it is funded, whether it 
is prepared. We will note that.
    Finally, as I left Puerto Rico, to me it was just all about 
power, power, and power. You have got a disaster, you have a 
crisis already, but it will grow if we do not establish power. 
So, I would like to ask the Administrator and also the General, 
where are we at? What are the prospects of reestablishing 
power? What do we have to do?
    Mr. Long. So, right now I am exercising under the Stafford 
Act emergency authorities, which is why we mission assigned the 
Army Corps of Engineers. It was the right thing to do initially 
because of the diminished capacity on the island. They are 
mobilizing under emergency authorities to rebuild the grid to 
U.S. code standards.
    The discussion that needs to be taken after that is how do 
we build a power grid that is resilient. That is going to 
require authorities far greater than the Stafford Act affords 
me at FEMA. Typically what we have to do is restore to a pre-
disaster condition, but, obviously, that is not optimal and not 
the way I would ever recommend this country to go. We do not 
want to be back in this situation again after having this 
disaster and an opportunity to change it. I will turn it over 
to General Jackson.
    General Jackson. Mr. Chairman, first of all, I think the 
grid today is slightly over 33 percent restored based upon the 
basic load that it had before the storm. There is incremental 
progress that is being made. The line repair and the 
restoration activities that have been done up to this point 
have been done by PREPA, and the Corps of Engineers has done a 
few things in terms of getting personnel on the ground. We 
installed a 50-megawatt generator at the Palo Seco Plant just 
within the last week that helped stabilize the grid in the 
greater San Juan area, and it added about 40 megawatts to the 
system today and yesterday, which has been very helpful in 
upping the power.
    We are approaching this in a number of different ways. 
First of all, we have the normal authorities that the Corps of 
Engineers has under the Stafford Act or ESF #3 temporary 
emergency power, which are generator installations. What we 
have typically done is come into an affected area and will 
install generators. Then we will take them out as the power 
grid comes up. And, the power grid restoration activity is 
usually handled by the local public utility and sometimes 
augmented by other capabilities outside the State.
    In this particular case, PREPA chose not to activate the 
type of normal arrangements that are used by the Public Utility 
Association, and so FEMA turned to the Corps of Engineers to 
help PREPA with the restoration of the grid based upon the 
emergencies that it created.
    What we have done up to this point in order to do that is 
to continue our ESF #3 temporary generator installation 
mission. We are almost at 400 temporary generator installations 
at this point today, and those generator sizes range from 40 
kilowatt all the way up to 1.5 megawatt, and those get 
installed at critical facilities that are prioritized by FEMA 
and by the Commonwealth, and that is typically hospitals, 
wastewater treatment facilities, communications platforms, 
schools, and other places. And, we will continue to do that as 
the grid continues to come together.
    We have also worked very closely with PREPA, and, again, 
just to remind everyone, we got this mission assignment on 
September 30th to do the grid restoration in Puerto Rico. We 
have been doing emergency temporary power since Hurricane Irma 
hit on September 6th. That mission started then, and we have 
gradually increased our capability to do more and will continue 
to do so as long as we need to.
    We awarded a contract for the 50-megawatt generator to help 
stabilize the load in San Juan and get more people power more 
quickly. Since September 30th, we have also worked very closely 
with PREPA to get an understanding of what material they needed 
to do this grid repair mission. That has been a very arduous 
effort because PREPA did not have a real good handle or 
understanding of what they had in their laydown yard, so we had 
to go physically from place to place to count how many poles 
they had, how many spools of wire, transformers, and the like. 
We have placed things on order, and we have worked very hard, 
through multiple venues, to get the material moving toward 
Puerto Rico, and that is happening as we speak today.
    We also went through the process of awarding contracts. We 
are unable to enter into mutual assistance agreements like the 
public utility could. A mutual assistance agreement that is 
entered into by a public utility is very similar to what we 
award for our debris and our temporary emergency power 
contracts. They are on the shelf ready to award. They can be 
awarded right away.
    For the contracts that we have awarded to prime vendors at 
Fluor and also PowerSecure, we have had to go through a 
competition process and, of course in accordance, with the 
Federal Acquisition Regulation to award contracts, and we have 
done that. We have 150 contractors on the ground today, aside 
from the 450 Corps of Engineers employees that are dedicated to 
the power mission. By the end of the weekend, those numbers 
will rise up about another 500, and by the middle of November 
we should have about 1,000 people on the ground.
    We are moving very fast to mobilize the line crews that we 
need to continue the effort in support of PREPA. And, the 
milestones that we have been given by the Administration 
initially were 30 percent by the end of October, which we are 
there now, thanks in part to a lot of the hard work that PREPA 
is doing, and our next goal is 50 percent of pre-storm load by 
the end of November, and that is the goal that we are shooting 
for right now.
    Chairman Johnson. Thank you, General Jackson.
    By the way, let us go 7-minute rounds. I know there is a 
request for two rounds, which we can do if people stick around, 
but we also have to be mindful of time. Senator Carper.
    Senator Carper. Thank you. Thank you very much for your 
testimony and all you have had to offer.
    My wife, Mr. Long, is a graduate of Appalachia State 
University. Her Dad taught math and physics there for 40 years. 
As I recall, you went to undergraduate and graduate school at 
Appalachia State University. She asked me to tell you the 
Mountaineers are proud of you. And, I recall meeting your wife 
and I think your children at your confirmation hearing, and to 
your family and to the families of everyone who each of you 
represent, whether you happen to be at FEMA or part of the Army 
Corps or the health folks, I just want to really convey our 
thanks to them for the support they are providing for their 
loved ones to enable them to help people in dire straits.
    I want to stay with the issue of energy. I am a recovering 
Governor. I have thought a lot about how to provide a nurturing 
environment for job creation and job preservation, and energy 
is a big part of that. Affordable energy, reliable, dependable 
energy is a huge part of that. And, they do not have affordable 
energy in Puerto Rico. They did not have it before, and 
obviously they do not have reliable or dependable energy today.
    I said earlier that in adversity lies opportunity, and in 
my conversation with the Governor of Puerto Rico yesterday, we 
talked about the situation they have now with power is 
generated in the south of the island and most of the people 
live in the north. They use mostly diesel to provide power for 
the electric grid. The electric grid is badly damaged, and they 
still have this reliance on oil, a lot of which comes from 
South America.
    When I look around the world, one of the smart energy 
programs involves natural gas where it is cheap and supplement 
that with renewables. And, when the wind does not blow and the 
sun does not shine, bring up the natural gas and provide the 
electricity in a cost-effective, cleaner way than we would get 
from diesel or other fossil fuels.
    Let me just ask--and I said earlier the Governor said to me 
yesterday eventually he wants them to increase their dependence 
on renewable forms of energy to as much as 30 percent. That is 
his goal. And, let me say I embrace his goal. I embrace this 
goal. How do we make this happen? And, how can we help make 
this happen?
    Mr. Long. I will take a shot at that first. Again, my 
authorities are limited to the Stafford Act. And, one of the 
issues that we are coming into and one of the issues that the 
Army Corps is facing is the recognition that the age of the 
infrastructure on Puerto Rico, I believe, the power plants, was 
close to--over 40 years average age. Worldwide, the average age 
of power plants is about 18 years. So, there is a big 
discrepancy there, and in many cases I think what we are 
running into in the complexities is some deferred maintenance 
issues and different things.
    And so, if you put all of that aside, what I have the 
authority to do under emergency essential services is basically 
to get the power back up and running to prevent further loss of 
life and public health events from occurring.
    In regards to building innovative, more energy efficient--
--
    Senator Carper. And, I might add more resilient.
    Mr. Long. Right, resilient. Definitely more resilient. I 
think we all agree that that is probably what is needed. But, 
the authority for me to spend taxpayer dollars to do that, I am 
not so sure that I have. And, that is something that I would 
ask this Committee to take a look at.
    Senator Carper. General?
    General Jackson. Thank you, Senator. Just a couple things. 
Everything that you said was right about the preponderance of 
the power generation being----
    Senator Carper. Note this. I rarely say everything right. 
[Laughter.]
    General Jackson. Most of the power generation is on the 
southern part of the island, and most of the population 
densities are on the north. So, the north-south transmission 
lines are critical. About half the power plants that are on 
Puerto Rico are fossil fuel; the other half are a combination 
of wind and solar.
    The Department of Energy has taken a hard look at that. 
What they have on the island right now produces or is supposed 
to produce about 5,200 megawatts of power. They really only use 
about half that. So, there is a lot of room to address maybe 
fewer more efficient power plants that produce the right amount 
of power with the right type of fuel to service the requirement 
that exists on the island today. The Department of Energy has 
been thinking about that, and they have been looking at that. 
They have been working very closely with PREPA to help 
understand what some of their challenges are, to make 
recommendations to the Administration and to Congress on things 
like--how much load do they really need and how much redundancy 
do they need in the system? And, how do they build additional 
capabilities to balance that load across all the demands in the 
system? How do they modernize the system to include the 
hardening of the system, to improve resilience? These are 
things that the Department of Energy has ideas on that they 
have shared with me and I know that they are working as part of 
a FEMA report that will have some recommendations, or maybe 
what a long-term solution might be for power.
    DOE is really looking at that hard. They have some real 
smart guys that are there on the ground with us going through 
the work that we are doing to help guide us and make sure that 
we are doing the right things. Ultimately, they are also 
looking at what is the right way ahead for the future of Puerto 
Rico so they can make those informed recommendations to the 
leadership.
    Senator Carper. You mentioned DOE has some really smart 
guys on the ground. My staff and I would like to be able to 
reach out to them and to talk with them. For the record, we are 
going to ask you to provide those as soon as possible (ASAP), 
the contact information for those folks.
    General Jackson. Yes, sir, I will.
    Senator Carper. That would be great. Thank you.
    Usually it takes weeks, if not months, for a full 
assessment of damages to be made and an estimate of the total 
cost to rebuild. I would ask really for everybody, how far 
along are you in the process for Texas, for Florida, for Puerto 
Rico, and the U.S. Virgin Islands? When do you expect those 
complete assessments of needs to be ready? We are expecting a 
third supplemental appropriations bill, but will the 
Administration be making additional emergency supplemental 
requests to assist those communities as further assessments are 
completed?
    Mr. Long. Well, first of all, I want to thank the Senate 
and the House for responding very quickly to every request for 
emergency supplementals. I know that my guys have been working 
around the clock to make sure that you guys stay informed of 
when we believe that we are bumping up and running out of 
disaster relief funds. So, I truly do appreciate it. We have 
asked for three supplementals, if I remember correctly, this 
year alone.
    In regards to the Virgin Islands all the way to California, 
each one of the States or island territories is in different 
stages of the recovery, but each one of these is going to be a 
tremendous long recovery. It is going to be a long haul for 
each one. For example, Texas and Florida are obviously still 
focused on recovery housing and making sure that we provide 
people with a proper place to stay as the rebuilding begins, as 
well as debris removal. California is in the same boat as well, 
but there are still some sensitivities in the State of 
California when it comes to hazardous materials and then 
associated with the debris, but also with rainfall, when you 
burned off the vegetation, making sure that we mitigate against 
watershed issues that come into play as well.
    So, everybody is in different stages, but the long-term 
recovery is going to be long. I do not think we have a good 
handle on the total cost of this, but you can rest assured that 
my guys will be in touch with your staff members to make sure 
that we do not fumble the ball when it comes to disaster 
recovery. And, we will do our best to also take care of 
taxpayer dollars every day.
    Senator Carper. Thank you. If I could ask the other 
witnesses to briefly respond to the same question, please. 
Thank you.
    General Jackson. Senator, I will only comment on the power 
grid for Puerto Rico. We are still assessing the damages. We 
received initial reports from PREPA when we first were given 
the mission assignment, and we found that the damages were not 
necessarily as great as they had originally reported. But, what 
we have to do is put people on lines and make sure that, just 
because the line is not laying on the ground does not mean it 
is operable. We are in the process of doing that now, and we 
will probably be doing that as we do the repairs for the next 
several weeks, and we will be able to put together, I think, a 
much better assessment of what the overall cost to repair the 
grid to the standard that we are seeking under the Stafford Act 
in very short order.
    Senator Carper. I am going to ask questions for the record. 
I am going to re-ask the same question and ask you and your 
staffs to respond to that question. All right? Thank you. Thank 
you very much.
    Chairman Johnson. Again, I really appreciate the number of 
Members here. I bumped the questioning up to 7 minutes, and I 
want Members and witnesses to stay within that 7 minutes as 
close as possible, just out of respect of everybody. Senator 
Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Will do. Thank you, Mr. Chairman.
    First of all, I would just tell you I appreciate this 
document. I appreciate it a lot. I think that this is an 
instructive piece of information, and it is instructive because 
what it tells me is that we are going to continue down this 
road until we start looking at root causes. And, I know we 
never, ever want to accept the fact, because it is a bit 
uncomfortable, of what we do with a changing climate. But, when 
we have towns evacuated in Montana in the middle of October due 
to wildfire, we have some major things that Mother Nature is 
telling us. And, if we do not address it, we are really not 
doing our fiscal fiduciary responsibility.
    First of all, I want to start out by saying, Brock Long, I 
think you are doing a great job.
    Mr. Long. Thank you.
    Senator Tester. You came in under difficult circumstances 
and getting pounded and pounded and pounded, and I think that 
you have really put your shoulder to the wheel and worked as 
hard as you could in a very difficult situation. So, I want to 
express my appreciation.
    A couple of things. In your testimony you talked about 3.5 
cubic yards. Was that million cubic yards of debris on Puerto 
Rico?
    Mr. Long. 3.5 million, but it may be off.
    Senator Tester. 3.5 million?
    General Jackson. 6 million is what we are tracking.
    Mr. Long. That may be in older numbers, so the numbers are 
changing.
    Senator Tester. OK. You also talked about pre-disaster 
mitigation in your opening remarks, and I think the savings is 
for every $1 in pre-disaster mitigation it saves $4 on disaster 
on the back side. I do not think we are spending enough on 
mitigation, and I think your testimony implied that. Do you 
have any ideas on what we need to do to address this issue.
    Mr. Long. Absolutely. The problem with the way the system 
is established is you have to get hit to have an extraordinary 
amount of post-disaster hurricane mitigation program grant 
funding. I believe that is not the right way of doing business. 
Specifically, Section 404 in the Robert T. Stafford Act 
dictates how money is formulated or provided for mitigation 
purposes. The 404 money--it would be amazing if we could work 
with the Senate and this Committee to move that to the front 
side, to offer up--on average, I believe we put out $700 or 
$800 million in post-disaster mitigation funding. Why are we 
not doing that on the front side and get it out of recovery, 
reduce the complexities of recovery, and put it up front?
    I do not know what the right mix is. I do not know what the 
right amount of money to make a real dent in it is. But, it has 
to be not only money up front, but I do believe that the key to 
resiliency is held at the local level of government, with 
elected officials, smart land-use planning, building codes, 
different things, and making sure that there are redundant 
systems that are in place. It is going to have to be a whole 
community effort on the pre-disaster side. But, if we could 
move that 404 funding to the front side of disasters--and it 
will not be an easy move--I think it makes perfect sense, and I 
think we can all agree that that is what needs to be done.
    Senator Tester. OK. Well, that is good. If you have any 
language that you could forward to this Committee and the 
Subcommittee on Homeland Security on Appropriations, I would 
certainly appreciate that.
    Mr. Long. Absolutely.
    Senator Tester. Because I think that it is a no-brainer.
    Major General Jackson, you said you were assessing the grid 
in Puerto Rico. Are you about done with that assessment? I 
guess I will ask the question, and you just tell me if you can 
answer it or not. Is it shot? Is it 90 percent shot, 95 
percent, 100 percent? Where is it at? I mean, I am talking 
about done, start over, rebuild.
    General Jackson. The answer to that is no, it is not shot. 
The initial reports that we got said there was 100 percent 
damage to distribution. That is 31,000 miles worth of line. 
That is not the case. The initial reports that I received said 
that 80 percent of the transmission lines were shot. That is 
2,400 miles of high-voltage----
    Senator Tester. Yes? What do you think it is now? I mean, 
what do you think it is?
    General Jackson. Sir, let me start by just saying as I flew 
over Puerto Rico a couple of weeks ago, there are a lot of 
lines that are up visibly; there are a lot of lines that are 
down visibly. The problem is until you get folks on the ground 
to see if those lines and the components that make up the line 
system are operable, you do not really know if the lines is 
energized. That is what we are doing right now.
    We are not doing a full assessment and waiting to do 
repairs. We already sort of know where we need to go and what 
we need to focus on.
    Senator Tester. So, what I am trying to get here is this: 
We have been told that the distribution system in Puerto Rico 
was horrible before the storms hit. Are we doing repairs to a 
horrible distribution system? Or are we fixing a horrible 
distribution system?
    General Jackson. Sir, under the Stafford Act, we are fixing 
the system to get power out to the people as fast as we can.
    Senator Tester. So, when the next hurricane hits, it is not 
going to knock down everything that was not knocked down in 
this hurricane, and we are back in the same boat.
    General Jackson. If you have a Category 5 hurricane, unless 
the lines are buried under the ground, it is going to knock 
wires down.
    Senator Tester. Even if it is new construction?
    General Jackson. Even if it is new construction.
    Senator Tester. All right. Is there any effort to talk 
about maybe developing generation so that the distribution is 
not as needed? I am talking not only renewable but even 
conventional generation.
    General Jackson. Senator, my understanding is, as Senator 
Carper alluded, the Governor has an interest in locating the 
power generation more closely to the population densities that 
they support.
    Therefore, it would obviate the needs for these long 
transmission lines across the island, and DOE is taking a look 
at that to help put together some ideas for the leadership.
    Senator Tester. I do not know if you do this or if Mr. 
Salesses does this, but are you looking at every option, not 
only carbon based but also solar and wind and geothermal?
    General Jackson. Senator, my understanding is DOE is 
looking at what the most efficient, modern, appropriate system 
would be for Puerto Rico to make those type recommendations.
    Senator Tester. OK. Do you guys know anything about PREPA?
    General Jackson. Senator, I know some things about PREPA, 
but----
    Senator Tester. Well, here is what I want to know about. It 
is a nine-member board that I should be tickled pink that they 
gave a contract to a company in Montana. But, as you look at 
the situation, two people have been in business 2 years, never 
done disaster work before. What kind of people are on this 
board? No-bid contract. I mean, I got to tell you something. If 
it was any of you guys, if it was you, Brock, I would not have 
started out saying you are doing a great job, I will tell you 
that. OK?
    Mr. Long. Right.
    Senator Tester. So, I do not understand what is going on 
here, and I do not understand where the accountability is. We 
have a Federal Financial Oversight Board. Maybe they are not 
doing their job. But, somebody is not doing their job. Would 
you agree? I see some head nods.
    Senator Harris. Let the record reflect. [Laughter.]
    Senator Tester. Thank you very much.
    Chairman Johnson. There is a governance issue. There is no 
doubt about it. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you to 
each of you for the work you are doing in these disasters. 
Unfortunately, given what is happening with the climate, we may 
be seeing a lot more of these disasters, bigger, stronger, and 
increased frequency. So, it is important that we take lessons 
learned from what we have seen here and understand that we are 
probably going to have to be applying them again and again 
going forward.
    Mr. Long, my time is short today, but I wanted to just 
alert you that I sent a letter to you yesterday in my capacity 
as the Ranking Member on the Federal Management Oversight 
Subcommittee of this Committee, and in that letter I asked a 
series of detailed questions about FEMA's response to Hurricane 
Maria and the humanitarian crisis in Puerto Rico. I am not 
going to go into all of those details, but the letter is going 
to you. I hope to have your commitment to get a quick response 
because I am sure our Subcommittee will have further hearings 
on this matter, and it will be helpful to frame that 
discussion.
    Mr. Chairman, if I could just have that letter entered into 
the record?\1\
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Peters appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Mr. Long. Absolutely, I am aware, and we will respond very 
quickly.
    Senator Peters. I appreciate that, Mr. Long. Thank you.
    As many of my colleagues have mentioned, the concern about 
particularly in Puerto Rico is to make sure that we have 
sustainability built into any kind of response. And, I know the 
Stafford Act prevents that from happening in the fact that it 
talks about limiting rebuilding to the way it was in place when 
the disaster occurred. You alluded to that as well in your 
comments. Do you think it is time for us to take a look at the 
Stafford Act? Would you recommend us taking a good look at 
whether or not that makes sense given the situation we are in 
now and what will likely be future situations given climate 
change?
    Mr. Long. Yes, and I work with my staff every day, and 
there are definite changes to the Stafford Act that we could 
consider. But, I would also like to take the time to 
methodically go through those and submit those, if there are 
recommendations, not only from my staff at FEMA, but the 
emergency management community as a whole. I am always for 
reviewing and bettering processes.
    There are opportunities for mitigation as a result of going 
through this, but rebuilding a grid to the level that we are 
all discussing here is not within my authority. And, I am 
concerned about the deferred maintenance issues, already when 
it comes to restoring and conducting permanent work as it is.
    Senator Peters. Well, I appreciate working with you on 
that, and as we have talked about before, personally some of 
those disasters that may not be under the Stafford Act, some of 
which is a disaster we had in Michigan, in Flint, for example, 
I think there are a lot of lessons learned from that disaster 
as well that means that we need to take a hard look at the 
Stafford Act and try to make improvements to make sure the 
American people get the help that they need when disaster 
strikes their community.
    That leads to my next question, which relates to the long-
term nature of these disasters, especially from my experience 
in Flint, that aid is normally available when the TV cameras 
are running. Usually, there is quite a bit of aid that will 
flow once the public media attention is there. The challenge is 
when the cameras stop covering the event and these folks have 
to deal with these disasters for many years in the future.
    So my question is: How long do you expect FEMA to be 
working in the areas affected by these hurricanes? And, do you 
have the capacity to handle that workload, which is probably 
going to be over the next decade or more?
    Mr. Long. At this point, no doubt about it, when it comes 
to recovery staff, we are stressed. We are having to rob Peter 
to pay Paul, as you could say, from other disasters. I think 
right now we have roughly 26 open disasters that we are working 
nationwide that do not get media coverage, and so in some cases 
what we are trying to do is go to more virtual models, and 
hopefully States are calling upon State-to-State mutual aid to 
be able to start managing a lot of their disasters and doing 
things more virtually.
    But, in regards to the most recent four events that we are 
talking about from the California wildfires to the three major 
events, it is going to take many years to go through. In some 
cases, when it goes back to your question on the Stafford Act, 
we do have Section 428 of the Stafford Act that allows us to 
move in a more expedited manner and possibly in a more 
resilient manner, but we have to make some decisions as to 
whether or not the program is working. It does reduce the 
number, the sheer number of project work sheets that we have to 
generate, and it allows us to do work more efficiently. I would 
like to continue going down that path, but also take a 
comprehensive look at how we get local and State government to 
also make sure that they are funding for staff positions 
adequately, as well.
    When it comes to future grants, I would rather have grants 
to hire and train proper staffing than to buy equipment. And, 
there may be people that disagree with me in the industry, but 
you cannot replace human beings, and that is what we need when 
it comes to the large amount of disasters that we are facing.
    Senator Peters. And, with these large disasters, I know it 
is still early to get a sense of what the cost will be, which 
will be very large. I think all of you have referred to the 
fact that is an ongoing process right now. But, do you have any 
indication in terms of the hurricanes? How do you think the 
costs will stack up? Which will be the most expensive? How 
would you rank them?
    Mr. Long. Well, it is interesting. When you look at 
Hurricanes Harvey and Irma, I think there are 2.5 million 
people in Florida alone that have been entered into individual 
assistance. In Hurricane Harvey, we are still under 1 million. 
OK? But then, when you look at the impacts to housing, the 
amount of money it would cost to fix flood-based housing issues 
is going to be tremendously more expensive than I believe what 
we may see in Florida.
    California is a whole other--as long as I have been doing 
this, I have never seen a more disturbing disaster in my life, 
and I think they lost 6,800 homes in that.
    And so, each one is tremendously different, and the costs 
will vary based on what the services are that are needed. As 
far as overall costs, I have heard numbers inside from my 
finance guys saying that we are probably spending about $200 
million a day right now just responding to the four disasters 
that we are facing.
    Senator Peters. And, how would you rank them? In terms of 
hurricanes, what is going to be the most expensive for us, and 
the second most? I have heard estimates that Texas will be 
number one. Is that accurate?
    Mr. Long. Probably Texas. Well, I do not know. I take that 
back, because we are not done with Puerto Rico. We are still 
trying to uncover that. But, I would believe that right now 
Texas is probably the most expensive one. But here, again, that 
is just a pure guess, and we still have numbers coming in.
    Senator Peters. And, obviously, with long-term funding, we 
have to have local government, State government engaged. But, 
they need to make plans for long-term investments to recover 
and to make sure that they are sustainable. But, it is 
difficult for them to do that without knowing the amount of 
money that is available, isn't it?
    Mr. Long. Yes, absolutely. Here again, the money comes 
mostly--the largest majority of the funding that States 
interact with FEMA is definitely on the recovery end. That goes 
back to the pre-disaster mitigation point. How do you plan to 
implement mitigation strategies when you have to get hit and 
you are not sure how much money you are going to come into 
based on the type of disaster? That is why I think that we have 
to preplan, take it out of recovery and put it up front so that 
you can do better visionary planning over the next couple of 
years to truly mitigate your communities.
    Senator Peters. All right. Thank you.
    Mr. Long. Thank you.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman, for this hearing 
on hurricanes, and I appreciate the Administrator speaking of 
California. This hearing is not about wildfires, but I would 
like to urge that we do everything we can to, as you 
appreciate, recognize we lost 42 lives in California, and the 
estimate is currently that we lost 8,900 homes and structures.
    On that point, from FEMA there is still--you are doing a 
great job, the Army Corps of Engineers. I was there. I visited 
the site. I have met with the families. And, you are absolutely 
right, it is devastating to those families and that community.
    In terms of FEMA, there is still a need--and I will just 
put this on your radar--for individual assistance to help cover 
temporary housing. You mentioned that. It is a big issue 
throughout the country and certainly in California around 
affordable housing. I know that FEMA does not have the number 
of trailers, and they are not on the production line in a way 
that we can get them to California as soon as they are needed. 
So, there is still a need for temporary housing, help, and 
basic essentials like clothing and baby formula. And, from the 
U.S. Department of Housing and Urban Development (HUD), if you 
can just pass this on, Community Development Block Grant (CDBG) 
funding for permanent housing is a big issue. Crop insurance, 
from the U.S. Department of Agriculture (USDA). And then, from 
the Small Business Administration (SBA), we need business loans 
for small businesses that have been destroyed. So, I thank you 
for that.
    On October 27th, through the Environment and Public Works 
Committee, which I am also on, we sent a letter\1\ to FEMA and 
the EPA and the Army Corps of Engineers asking for information 
about a timeline and the work that has been completed or is yet 
to be done as it relates to debris. So, I would like to get an 
answer to that, and if we can get that within the next week, I 
would appreciate that. There are about seven specific 
questions. But, as you are aware and as has been mentioned 
here, there are millions of cubic feet of debris in Puerto 
Rico, and it is my understanding that we are looking at debris 
that is large. It ranges from rooftops to garage doors to 
refrigerators and couches, debris that the people who live 
there cannot pick up and move.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Harris appears in the Appendix 
on page 88.
---------------------------------------------------------------------------
    There has also been a compromise to the landfills in Puerto 
Rico that existed before the hurricanes hit and remain a 
problem. It is my understanding that FEMA plans to remove the 
debris, but I am not clear on what the timeline is for actually 
getting that completed. Can you tell me what that plan is?
    Mr. Long. So, each one of the events is extraordinarily 
different, and there is no one-size-fits-all approach when it 
comes to debris removal. For example, the California wildfires, 
if I may use that as an example, because of the nature of the 
hazard, you first have to go through and make sure that you 
remove all the hazardous materials from personal property. 
Then, obviously, as you said, the number of deaths is projected 
to go up to over 80, and that is because we are still searching 
for remains in a very humane manner, trying to make sure that 
we go through the debris to find remains in the burn area.
    After all the environmental piece is done and we correctly 
go through to look for remains, then a lot of the debris 
contracting is done at the local level through private 
contracts. If those contracts fail or the Governor requests 
FEMA specifically, then we can mission assign the Army Corps of 
Engineers, which I believe the Army Corps of Engineers has been 
mission assigned in California, similar to Puerto Rico.
    Debris in Florida was done differently. A large majority of 
that was done at the local level by debris contracts and pre-
event contracts that they established. So, each one of these 
may have different timelines because of the types of debris, 
but like Puerto Rico----
    Senator Harris. Yes, what is the timeline for Puerto Rico?
    General Jackson. Senator, I do not have an exact timeline 
for Puerto Rico. We have just started scratching the surface on 
debris removal. We have run into some really interesting 
politics within the 78 municipalities that make up Puerto Rico 
in terms of how they are allowing us to gain access. So, we are 
in some significant negotiations. Many of the municipalities 
have come back and said, ``We do not really want you to do it. 
We will take care of it ourselves.'' So, we are going through 
that right now.
    I will respond to the letter that you sent with a much more 
definitive timeline than what I just gave you.
    Senator Harris. I appreciate that. And then, if you could 
also follow up on this point about what jurisdictions within 
Puerto Rico are hesitant to cooperate with your efforts so that 
we can make sure that we do our part to figure out how to get 
some cooperation.
    General Jackson. We will do that, Senator.
    Senator Harris. OK. And, Dr. Kadlec, my understanding is 
that the debris piles that are occurring in Puerto Rico are wet 
from the recent rains; they are attracting pests that range 
from rodents to mosquitoes. And, there is also a concern that 
the pets that are going there and the rodents that are going 
there are leaving great amounts of urine that is also seeping 
into the waterways. Can you talk for a moment about the health 
risks associated with this accumulating debris?
    Dr. Kadlec. Well, ma'am, there are several issues that have 
to be dealt with in that, and one is the moldy kind of debris 
that you would be anticipating and, again, fungal growths that 
would be causing exacerbations of respiratory disease like 
asthma. Also, you would be very concerned about some of the 
immunosuppressant effects of certain fungal growths that are 
out there, people with immunocompromised situations.
    Probably the biggest concern about debris piles is that you 
find people climbing on them, rooting around in them, so there 
is likely lacerations, injuries, and infections, soft-tissue 
injuries that come from that.
    Senator Harris. And, bacterial diseases. Is that correct?
    Dr. Kadlec. Yes, ma'am, bacterial diseases----
    Senator Harris. That can lead to death.
    Dr. Kadlec. And, the last one you did mention, but I will 
mention because it is a matter of topical interest, is 
leptospirosis which is endemic to Puerto Rico. It occurs 
typically during the rainy season, August through December. 
There have been some cases already defined or declared and a 
couple of deaths suspected with that. It is a disease that is 
remedied by antibiotic therapy. About a week after the landfall 
of the hurricane, we were working with the State 
epidemiologist, and, again, everything we do is in support of 
the Department of Health on Puerto Rico, basically making 
available courses of antibiotic treatment to basically treat 
anticipated levels of leptospirosis and other bacterial 
infections. Typically, leptospirosis occurs in about a couple 
hundred cases a year. We would expect that to probably go 
higher than that because of the nature of the events. So, we 
have provided several thousand courses of treatment for Puerto 
Rico.
    Beyond those kinds of circumstances, you would be concerned 
about tetanus. We have also made available tetanus vaccines 
through the Centers for Disease Control and Prevention (CDC) 
and also have made available 24 environmental health officers 
to work with the department in Puerto Rico as well as 
epidemiologists to track not only these kinds of environmental 
hazards but also the cases that would be associated with it.
    Senator Harris. Mr. Chairman, I recognize my time is up. I 
would like as a follow up from each who has information about 
the incidents that we are also hearing of people in Puerto Rico 
drinking water from Superfund sites because of their 
desperation to get drinking water, and, obviously, there are 
obvious health risks, huge health risks associated with that.
    Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and giving a chance to 
walk through this. I have a multitude of questions I am going 
to try to blitz through in a short period of time.
    Mr. Long, let me ask you this. This comes back to the 
preparation side of this. The Biggert-Waters Flood Insurance 
Program in 2012 required a report every 6 months on how we are 
doing on the debt? What is happening there? What process do we 
have to be able to work out of the flood insurance debt? The 
previous Administration just stopped doing that report at the 
end of last year, so we do not have that really for 2 years. 
So, it made it difficult coming into this year and trying to 
deal with obvious flood issues when we do not have a report for 
the last 2 years. Do you know when that is planned to restart? 
I understand full well in the chaos of all that is trying to go 
with what is happening currently that is probably going to be 
behind again, but do you know where that is in the process of--
--
    Mr. Long. I do not, but we will follow up directly with 
you.
    Senator Lankford. That would be helpful. You also mentioned 
in your testimony about trying to interact with private 
entities in the private sector on flood insurance. Do you have 
any specific ideas on that, things that you plan to be able to 
bring at the end of this?
    Mr. Long. While the NFIP program is underneath my 
authorities, I am not an insurance expert when it comes to 
fixing the NFIP. Going into Hurricane Harvey, if I remember 
correctly--and this is, give or take a couple million here--we 
were $24 billion in debt roughly. And then, anytime you have a 
massive event--Hurricane Katrina sent it into debt. Hurricane 
Sandy sent it into debt. Hurricanes Harvey and Irma are going 
to send it into further debt, which Congress has recognized.
    We have to fix the business framework, and it has to 
require a solution from the private sector. I think the private 
sector should drive a lot of the market, and if we are going to 
continue to reward bad behavior by building in flood zones, 
then there needs to be actuarial risks that are involved. I 
fully understand the affordability issues, but I also believe 
that we cannot continue to allow conducting business under the 
same framework and continue to go into debt.
    I do not want to run a program that goes into debt, so I 
know what I do not know, and I know that we need the private 
sector's support. I need your support to figure out the best 
way forward.
    Senator Lankford. So, let us work our way through this, 
which we understand will be months in the process, and years in 
many places in the process. But, we do need some help to be 
able to sit down at the table and be able to figure this out.
    Mr. Long. Absolutely.
    Senator Lankford. We have ideas that we are bringing to it. 
Obviously, the practitioners that are working through this are 
going to have specific ideas. We have to deal with outside 
private sector insurance. We do not want to create a situation 
where the private sector creates insurance policies, and then 
as soon as they have claims, they walk away from it.
    Mr. Long. Right.
    Senator Lankford. That does not help those individuals. It 
does not help the Federal Government. There have to be some 
ways to be able to establish some backstops that will work long 
term and can provide some affordability. So, I would like to 
commit that in the days ahead we are going to try to get some 
ideas worked out and look at a long-term plan. That is not 
going to be a year to resolve. That is going to be a decade or 
more to resolve, but we have to be able to get started on this.
    I know with FEMA as well there has been some interaction, 
and I am not going to press you on this because we have talked 
about it before. But, it is odd still in Florida and in Houston 
and in Puerto Rico that if a United Way facility has 
devastation, or a zoo or a museum has devastation, they can 
engage with FEMA for help. But, if a mosque, a synagogue, or a 
church has devastation, they cannot. All of those are 
nonprofits. But, for those that are considered houses of 
worship, they cannot engage in the same way. I feel like in 
reading the law from the 1990s, when Congress said that 
nonprofits would be included, that is all nonprofits. And, I 
will be able to continue that conversation in the days ahead 
with you on that.
    Mr. Long. Sure.
    Senator Lankford. I know there has been some pushback, 
which I think is reasonable to be able to ask that question on 
that.
    General Jackson, by the way, your family is doing good?
    General Jackson. Yes, sir. Thank you.
    Senator Lankford. Good. It is good to see you again.
    General Jackson. Good to see you, Senator.
    Senator Lankford. Thank you for the way you continue to be 
able to serve the Nation. You mentioned a comment that about 
half of the power generation of Puerto Rico is from wind and 
solar and half of that is from fossil fuels. Did I hear that 
correctly?
    General Jackson. Yes, Senator.
    Senator Lankford. So, of those that are there, what 
remains? What was the most resilient? What is still working? 
What is redeemable of that?
    General Jackson. Very interesting, Senator, that you ask 
that, because I was very surprised when I flew over the 
renewable sites, the solar and the wind, the actual blades of 
the wind farms were snapped off, and the solar panels were all 
smashed. The actual power plants that held up the best were the 
typical standard power plants, be it the natural gas or coal 
fired or heavy diesel or what have you. Just the structures 
themselves held up better than the renewables did based on what 
I saw.
    Senator Lankford. I am not anti-renewable, to say the 
least, but I think part of the conversation that we have to 
have in helping Puerto Rico get back on its feet is to look at 
resiliency long term. So, I want us to be able to look at all 
of those things as we go through the process, and I know that 
will be a common conversation around this horseshoe and to be 
able to figure out how we actually get them back in place.
    I am asking a question that I know is unfair, so I am going 
to go ahead and tell you up front. We are all concerned about 
why Puerto Rico did not choose to do mutual aid for their power 
reconstruction. Texas did, Florida did; other groups when they 
have experienced it, they ask for mutual aid and engaged. What 
have you been told why they did not do that? Now, you cannot 
tell me why. I am only asking what have you been told why they 
did not ask for mutual aid. And, Mr. Long, the question is 
coming at you as well next on that.
    So, General Jackson, what have you been told why they did 
not request mutual aid?
    General Jackson. Senator, I have been told that they did 
reach out at some point for mutual aid, but because it is a 
cost-shared arrangement and Puerto Rico is in the financial 
situation that they are in, utility companies were hesitant to 
engage because there was no guarantee of cost-share payment.
    Now, that changed, I believe, when the cost-share 
arrangement was waived, and then they reengaged, public power 
utilities reengaged. But, by that time, PREPA had already 
reached out and had engaged with a sole-source contract, and 
that is how that arrangement was started. That is what I have 
been told through multiple sources, but I obviously do not have 
any authority----
    Senator Lankford. I understand, because, again, I am not 
asking what they did or why they made the decision, just what 
you were told.
    Mr. Long, is that the same thing you were told as well?
    Mr. Long. General Jackson is correct, and I agree with him. 
Many companies are not willing to engage until there is a 
guarantee of 100 percent.
    Senator Lankford. Right.
    Mr. Long. And, the bottom line is that--I spoke with 
Governor Rossello yesterday. They are going to reengage the 
Emergency Management Assistance Compact (EMAC) process for 
power support. I think specifically they are having 
conversations with the States of Florida and New York. And, the 
goal is that my Federal Coordinating Officer, Mike Byrne, has 
requested that PREPA make sure that we are unified with the 
Army Corps so that we are not working in separate streams but 
we are working together in a consolidated effort.
    Senator Lankford. We will follow up with your staff because 
I have another question that is a process issue that we will 
have to just talk through, and that is, at times when FEMA 
cannot get it done with contracts, you are punting to Army 
Corps of Engineers to be able to handle any contracts. And, 
what I would be interested to know is the contracting process. 
Which one takes longer? Which one is more efficient? Which one 
has greater cost? At times there is some overlap in between as 
to who has debris removal, at what level FEMA can handle it, at 
what level they need to be able to hand it off. For us, that is 
going to be helpful just to be able to know because those are 
Federal dollars there. Which one is more efficient? Do we need 
to buffer one up to be able to correct another one?
    Mr. Long. We do not typically contract to rebuild power 
grids. We mission assign the Army Corps of Engineers who 
handles the contracts directly to get the job done. The best-
case scenario is the example of Florida. Florida Power and 
Light controls their destiny when it comes to restoring their 
own power grid and then activating mutual aid, and then FEMA 
basically serves in a supportive Federal role to reimburse 
those actions.
    Senator Lankford. My question will not be specifically on 
power. It will be on all contracting, whether it be debris 
removal or whatever it may be.
    Mr. Long. Sure. OK.
    Senator Lankford. When we have to hire individual 
contractors, who handles that more efficiently? How does that 
actually work? Which one takes longer?
    Mr. Long. Understood.
    Senator Lankford. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, thank you 
to my colleague from New Hampshire for letting me go first.
    I have a few questions about the Navy ship Comfort 
according to the Department of Defense, the Comfort has one of 
the largest trauma facilities in the United States and is 
equipped as well as any kind of floating hospital can be 
equipped. It is capable of treating 200 patients per day with 
250 beds available. But, yet we hear over and over again that 
there are people going without medical treatment. Despite that 
capability and a staff of over 800 trained personnel, the 
Comfort has treated only 100 patients 17 days after arriving in 
Puerto Rico on October 3rd and 30 days after Hurricane Maria 
made landfall.
    Dr. Kadlec, how many patients have been treated on the 
Comfort so far that you are familiar with? And, can you 
elaborate on the challenges that we have had getting patients 
to the Comfort?
    Dr. Kadlec. Sure. I think the last count was 121 as a 
result of that. But, ma'am, before you make a judgment on that, 
let me just explain what was the approach using the Comfort as 
it related to its high-acuity capabilities, of which you are 
correct in saying there are 200 beds, but there are, more 
importantly, 50 intensive care unit beds on that boat, and that 
really was the capability we needed, because, quite frankly, if 
you looked at the events on the island, we had a Level 1 trauma 
center at Centro Medico which was the east side of the island.
    Senator Heitkamp. So, how many of the patients that were 
treated aboard the Comfort were actually ICU patients?
    Dr. Kadlec. Were high-acuity patients?
    Senator Heitkamp. Yes.
    Dr. Kadlec. Well, if I recall correctly, over 60. I can get 
you that number, though, ma'am. But, the point was that we used 
that as a floating intensive care unit primarily in the bases 
when we are trying----
    Senator Heitkamp. So, it is your judgment that the Comfort 
has been fully utilized for the need in Puerto Rico?
    Dr. Kadlec. What it did was cover a critical bet that we 
had, which was based on the risk that hospitals would lose 
power because the majority of them--in fact, all of them were 
on generators for a period of time. Now we have 70 percent back 
on the grid. But, for the time being, when the hospitals were 
on generators and there was risk of failure before we could put 
backup-backup generators, we used the Comfort as a place where 
we could take high-acuity patients, transport them by 
helicopter, by rotary wing medevac helicopter----
    Senator Heitkamp. I get all that, but I think anybody who 
looks at this--and maybe it is just the news, and I will turn 
to you, Administrator Long--who looks at the news and says, 
look, there is this huge medical need, people going without 
treatment, people at risk of losing their life, we have this 
incredible asset. This is an island. It is not like the United 
States of America where you might have something 3,000 miles 
away. Why does it seem to be, to me, underutilized?
    Mr. Long. So, I appreciate the question, and I understand 
the frustrations in the question. The goal is always anytime 
you move medically fragile people, patients, out of a hospital, 
you take a risk of them surviving that move to begin with. So, 
the goal is to stabilize the situation in the hospitals, and 
there was a tremendous effort to do that. Because what we ran 
into was not only hospitals operating without power, but making 
sure that the generator actually worked, getting it fuel on a 
regular basis, and then maintenance of the generator ongoing. 
These generators are not designed to run for months.
    So, what we did is we initiated the Comfort--and, Bob, you 
can probably talk about the timeline it takes to actually do 
that. It is about an 8-day process to even turn the keys on, 
fuel the boat, get everybody staffed to even mobilize and go to 
the island. It is a long process. But, the bottom line is we 
basically set up a 911 system, as I understand, to where in two 
or three cases a hospital generator would fail, we would move 
the most medically fragile patients via helicopter from the 
hospital to the Comfort.
    I would argue that it was being utilized very well. Again, 
the goal is to try to get the hospitals to operate. We are 
always going to be second-guessed on everything, but try to get 
the hospitals to operate and serve patients where they are.
    Senator Heitkamp. Administrator Long, I know Senator Tester 
hit on this, but one of the concerns that I have, given what 
now has landed on your plate, is that all of our talk about 
mitigation, all of our talk about preparedness will take a back 
seat to just dealing with the disasters that you have been 
handed. We all know based on experiences with Hurricanes 
Katrina and Sandy, now, we are here for a month and then we 
leave.
    What are you going to do or what recommendations would you 
make to us in terms of staffing so that you have the capability 
of actually looking at mitigation and not just dealing with the 
crisis?
    Mr. Long. Sure, and I have been concerned about that 
because my staff and the coordination through the Federal 
departments, I mean, tens of thousands of people have been 
deployed. If you look at the actual number that has been 
deployed starting with Hurricane Harvey, it has been 
unprecedented, and I do not have to say that. Unfortunately, I 
do feel like we are losing a lot of the successes that have 
actually been implemented as a result of the Post-Katrina 
Emergency Management Reform Act. A lot of things went right.
    So, that we do not lose Puerto Rico, I plan to do an after-
action report to make sure that we understand where we are 
versus where we need to be specifically when it comes not only 
to Puerto Rico but island territories. I want to go back and 
hit the reset button.
    In regards to staff specifically, eventually I would like 
to change the entire hiring process of the Federal Emergency 
Management Agency to adopt a more Federal Bureau of 
Investigation (FBI)-style academy approach. I would also like 
to expand my staff out of those regional offices to the States 
and islands to make sure that we are a part of that discussion 
every day.
    Senator Heitkamp. I think you received an incredible amount 
of bipartisan support, in part because we understood what role 
you played in the lookback on Hurricane Katrina. We hope that 
you will be equally critical of the work that you have done as 
Administrator.
    Mr. Long. Sure.
    Senator Heitkamp. But, that you also will collaborate with 
us in terms of what you need. I think Senator Tester said it 
best. You cannot look at this and then understand this 
continues and think that we do not have a huge challenge where 
we need to look at all hands on deck, what are the requirements 
that we want to impose on States so that they understand what 
their role is going to be, so they are not overly dependent on 
the Federal Government, but that this work is seamless.
    And so, I look forward to additional conversations with you 
and to understanding what you need. But, we cannot give you 
what you need if you do not ask.
    Mr. Long. We would be happy to put that ask together, and 
if I may, each citizen is responsible for their own individual 
preparedness. We do not have a true culture of preparedness in 
this country, and we need to hit the reset button and look at 
how we partner with the Department of Education and give people 
critical skills. Gail McGovern with the Red Cross said that one 
in four of us is going to have to perform CPR to someone else 
at any given time. Are we giving people those Boy Scout-type 
skills as well as tangible things to understand that they may 
be the true first responder for an active shooter event, or if 
your neighbor's house has collapsed upon them. Many times 
citizens are the first true responder, and we have to start 
dedicating our public awareness and cultural preparedness 
campaigns to doing that as well as figuring out what the 
State----
    Senator Heitkamp. I could not agree with you more. Thank 
you so much for your hard work and all of you working under 
very difficult circumstances. We hope that Congress can be an 
effective partner for you.
    Chairman Johnson. And, Senator Heitkamp, real quick before 
you leave, you may not have been here, but one of the action 
items I am taking away from here is literally that State-by-
State, territory-by-territory assessment, who has prepared 
themselves? What is the current State so we can determine 
something in mitigation? We will definitely follow that up with 
a hearing.
    Senator Heitkamp. Yes, Mr. Chairman, the Grand Forks flood 
was a devastating event. We all pulled our State disaster plan 
out, blew the dust off of it, and realized that we needed to 
take that process more seriously. So, nothing like a State 
disaster the caliber of this to realign all of our thinking.
    Chairman Johnson. Yes. So, we will work with you on that. 
Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you very much, Mr. Chair, and 
thank you all to the witnesses for being here today and for the 
work you do on behalf of our country. We are very grateful. I 
have three basic questions, and so I am going to try to move 
through them quickly so we can get to all of them.
    Administrator Long, I want to again thank you for being 
here today and also for briefing several Senators on a call on 
September 28th in which you updated us on the U.S. Government's 
relief efforts in Puerto Rico. On this call you said that the 
airports and seaports were all heavily damaged. You also added 
that the road networks were in many cases impassable and that 
you lacked trucks and personnel to be able to effectively 
distribute the ample relief supplies you had waiting on 
pallets.
    So, when did FEMA and the Department of Defense first make 
the assessment that the damage to the airports and seaports 
would encumber the delivery of relief supplies?
    Mr. Long. Almost immediately, and that was the logistical 
complexity of being able to put forward the humanitarian 
mission. All of those ports were damaged, but it was not just 
the ports. It was the air traffic control systems that also got 
those in.
    Senator Hassan. So, it was almost immediate. So, when did 
you make the determination that you would need the full 
capabilities of the United States military to be able to 
distribute resources based on that assessment? And, when did 
you first ask the Department of Defense for the type of assets 
that were eventually provided for the relief response?
    Mr. Long. Sure. And if I may defer here, but let me be 
clear. We engaged the Department of Defense before Hurricane 
Maria hit, so there were a ton of assets on the island before 
the storm hit. But, you can only put so many people and 
equipment on an island, or you expose it to the storm, and it 
becomes useless after the fact. So, it is a balancing game, but 
if I may defer?
    Senator Hassan. Sure. Go ahead.
    Mr. Salesses. Senator, my name is Bob Salesses. I am from 
the Defense Department.
    Senator Hassan. Right.
    Mr. Salesses. As you may recall Hurricane Irma came through 
first. As you know, it hit St. Thomas and St. John and did a 
lot of damage. We actually had DOD assets in the area. We had 
the United States Ships (USS)----
    Senator Hassan. So, I am just going to interrupt for a 
second, because on the September 28th call with FEMA and other 
Agencies, the DOD representative stated that the U.S. Northern 
Command was working on a plan to mobilize an additional 
sustainment force to Puerto Rico. Now, that is 8 days after the 
hurricane hit.
    Additionally, according to FEMA's website, on October 1st, 
U.S. Northern Command delivered approximately 310,000 meals, 
150,000 liters of water, generators, tarps, additional 
sustainment units, and leading components of aviation command 
and control. Given that it was apparent from FEMA and DOD 
assessment that both the airports and seaports of Puerto Rico 
were heavily damaged and that this would cause immense 
distribution challenges, why did it take until October 1st to 
deliver aviation command and control to the island? And, why on 
September 28th was the U.S. Northern Command still working to 
finalize its plans to deliver a sustainment force? And, when 
did the sustainment force arrive?
    Mr. Salesses. So, ma'am, to answer that question, again, 
there is concurrent activity always in these events. As I 
indicated, we had Navy ships in the area--the USS Kearsarge, 
the Oak Hill. They had helicopters. They were doing search and 
rescue capabilities.
    Simultaneously, USTRANSCOM, which is responsible for 
strategic airlift and providing C-17s and C-5s, was flying in 
assessment teams for airfields. As the Administrator pointed 
out, a number of those airfields had severe damage, no 
navigation aids, no radars, those kinds of things. That 
equipment had to be put in place.
    All of this was happening well before the 28th, ma'am. I do 
not know where the impression----
    Senator Hassan. Well, I will tell you, the impression came 
from the questions we asked on a conference call on September 
28th.
    Mr. Salesses. And, there was a lot of military capability.
    Senator Hassan. So, what I would ask is a follow up. We 
will, of course, have these letters to you directly, some real 
specifics here, because I think all of us were concerned that 8 
days after the hurricane hit, it seemed like we were still 
having to suggest in that call that the United States military 
was going to be necessary to help get some supplies distributed 
because of the impassability of transportation infrastructure.
    I do, just because I have a couple of minutes left, want to 
move on to one other question to Administrator Long. Last week, 
ProPublica posted a story that stated that FEMA was declining 
to publicly release a document drafted several years ago that 
detailed how FEMA would respond to a major hurricane in Puerto 
Rico. According to ProPublica, FEMA started drafting the plans, 
known as the ``Hurricane Annex,'' after the lack of preparation 
in the wake of Hurricane Katrina. ProPublica also found similar 
plans posted on DOD's website for Hawaii, which detailed an 85-
step process to restore electricity on Hawaii in the event of a 
hurricane.
    So, why is FEMA not releasing this document to the public? 
And, could you please commit to making it public? And if not, 
will you please articulate what was in the Hurricane Annex and 
what steps you followed in the aftermath of Hurricane Maria?
    Mr. Long. Sure, Senator. We gave it to the Committee last 
night, apparently. I was just briefed.
    Senator Hassan. OK.
    Mr. Long. But, I was unaware of the issue. I would be happy 
to follow up with you directly.
    Senator Hassan. Well, thank you very much. And in that 
case, I will also just, before yielding back the remainder of 
my time, let you all know that--well, actually we have a 
minute. So, instead of giving this to the record, I did want to 
touch on the U.S. Virgin Islands and where we are in terms of 
power restoration and tourism, because perhaps even more so 
than Puerto Rico, the U.S. Virgin Islands' economy 
fundamentally depends on the ability of the islands to host 
tourists from all over the world. The Virgin Islands suffered a 
direct hit from not only Hurricane Maria but Hurricane Irma as 
well. These storms knocked out the power across these islands, 
and the islands cannot expect to begin to reestablish its 
tourism economy without the restoration of power, to say the 
least. Yet after more than a month, the U.S. Virgin Islands 
report that less than a third of the territories have power up 
and running.
    So, what steps are FEMA and DOD taking to restore full 
power to the U.S. Virgin Islands? And what is FEMA's current 
estimate of when 100 percent of the islands will have power?
    Mr. Long. So, excellent point. The Virgin Islands were hit 
equally as hard as Puerto Rico, and the bottom line is that 
they are basically in the same approach, but there are two 
different approaches being taken to restore the power, as I 
understand it. So, where we proactively pushed forward the Army 
Corps of Engineers in Puerto Rico, the power authority that 
represents the Virgin Islands is in control and conducting 
their own contracts and leading their power restoration. The 
last number I saw was that power should be restored by the 
December timeframe as well. But here, again, that is just an 
estimate.
    Senator Hassan. OK. Well, thank you again for your 
participation. I appreciate it very much. And, Mr. Chair, thank 
you.
    Chairman Johnson. Senator Hassan, let me just brief you 
what I know about that report you referenced. The Annex is 
jointly owned by FEMA and Puerto Rico. It was not released 
because Puerto Rico did not give FEMA permission to share with 
the media. We got it as a ``For Official Use Only'' (FOUO) 
document, which we are happy to share with you. But until 
Puerto Rico agrees to release it, it cannot be released to the 
general public.
    Senator Hassan. Well, I would appreciate to see it. I am 
glad we have it. And, I will follow up with you further. Thank 
you.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Chairman Johnson. Thank you for 
testifying today, Administrator Long, it is good to see you 
again. I got to tell you, folks out in eastern Montana are very 
grateful that you listened to our pleas when we had some 
devastating wildfires that took out much of Garfield County. I 
think we have seen the criteria for dealing with a rural 
situation, a rural environment, which much of Montana is, can 
be a bit different than a disaster that hits one of our urban 
centers. I want to thank you for your responsiveness and, 
importantly, for your action, and the folks out in eastern 
Montana appreciate that a lot.
    We had a terrible wildfire season in Montana this past 
summer. In fact, Secretary Perdue listed the top wildfires in 
the Nation as ranked by dollars spent to fight them. We shave 
pent over $2 billion fighting wildfires this season, and it is 
still not over yet. The number one fire in the Nation was in 
Montana, the Lolo Peak fire. The number three fire in the 
Nation was in Montana, the Rice Ridge fire, just in terms of 
dollars. So, it was one of those terrible seasons, and, again, 
thank you, Mr. Long, for what you did in response to help us 
there in Montana.
    Much of the discussion here today has been on Puerto Rico 
and the devastating hurricane and the loss of the electric 
grid.
    Mr. Long, I will tell you, I was a bit surprised when I 
heard the story of a small contractor of two people most had 
never heard of, including myself, being awarded a contract that 
was worth $300 million to rebuild Puerto Rico's power grid. In 
the contract, the Puerto Rico Electric Power Authority, claimed 
it met all the guidelines and regulation set forth by FEMA and 
that it had been reviewed also by FEMA.
    Would you explain FEMA's involvement in the contract 
process and how you monitor Federal dollars before they are 
allocated?
    Mr. Long. Sure. So, let me be clear. The Whitefish contract 
was not a FEMA contract. PREPA entered into this contract in 
late September. We were notified several weeks after the fact. 
There is no lawyer inside FEMA that would have ever agreed to 
the language that was in that contract to begin with, so let me 
be very clear about that. And, we raised a red flag and 
basically said that, we are not sure this is a sole-source 
contract or a competitive rate. There were many things wrong. 
There was also language in there that would suggest that the 
Federal Government would never audit Whitefish, which there is 
not a lawyer inside FEMA that would ever agree to that type of 
language.
    So, the bottom line is that, as I understand, not one 
dollar has gone toward that contract from FEMA, and what we are 
doing is rectifying to make sure that PREPA has not requested 
any funding for that reimbursement effort.
    We have a lot of work to do when it comes to grant 
monitoring at all levels of government. It is not just FEMA, 
but it is at the State and the local governments when it comes 
to the grantees that are there. We ask them to always follow 
pre-disaster bid laws and policies, because when you change 
those policies after a disaster, it is going to hang you up in 
an audit. We also ask them to follow emergency bid laws when it 
comes to the procurement process, according to 2 Code of 
Federal Regulations (CFR).
    So, we have a lot of work to do when it comes to training 
and ensuring grant monitoring, but in that case, that was not 
our contract.
    Senator Daines. Thank you. I will be interested, as you dig 
into that one, in what the lessons learned are from that 
situation and how we can improve that process. It is always one 
of the concerns when we have a disaster. Of course, we want to 
move quickly. People are in need, people are dying. But, we 
also want to make sure we are accountable, efficient, and there 
is oftentimes opportunity for a tremendous amount of waste in a 
situation where we are spending billions of dollars following 
some of these disasters. So, I look forward to that follow up, 
what you learned from that, Mr. Long.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Mr. Long, one of my constituents volunteered through the 
American Federation of Labor and Congress of Industrial 
Organization (AFL-CIO) to provide assistance in Puerto Rico. He 
was there from October 4th through the 18th, and he certainly 
said the citizens remarked how grateful they were for the 
assistance that was being provided by his group because no one 
else seemed to be there to help, was at least his experience on 
the ground. I know a group of National Nurses United had a 
similar experience and also made some of the same comments to 
me.
    It seems to be a common perception that assistance was not 
reaching the people in need in Puerto Rico, that there were 
some distribution problems, that stuff may have gone to 
distribution centers but it was not getting out actually to the 
individuals. So, my question is: Why were we hearing that from 
volunteers? And, do you believe that was an issue?
    Mr. Long. I cannot speak to the gentleman's direct 
experience, but I can explain the logistical complexities that 
we faced when it came to the humanitarian issues of getting 
meals and water out.
    As we were discussing earlier, all the ports were damaged. 
It took us time to not only rebuild the air traffic control 
system but open up the ports. We pre-staged quite a bit of food 
in our Caribbean Area Division before the storm. You can only 
stage so much on the island. We also checked with Governor 
Rossello and the school systems. They had a lot of food inside 
the shelters, multiple days of food in each one of the school 
shelters that were there. So, we tried to put as much food 
forward as possible before the storm hit.
    When it came to the diminished capacity, obviously the 
State and local governments, they were disaster survivors. As 
we began to push in the food to the island, we had to quickly 
mobilize 10 regional distribution hubs where we would fly it 
in, set up and stage all the commodities, and then force the 
food and water to each one of these distribution hubs. We had 
to establish communication with all 78 mayors because there was 
no survivable comms that were there. We started communicating 
and sending liaisons to mayors and making sure that we got the 
commodities to them directly. If they could not get it to the 
final mile, then we would actually air drop if there were 
isolation issues. I do not know how many isolation-based air 
drops we have made, but they are continuing today.
    Did we get to everybody? It is hard to say. Part of it was 
the lack of communications and that we recognized that people 
were not sure where to go. In some cases what I saw with my own 
eyes, I went to Utuado in the central portions, mountainous 
regions of Puerto Rico, where some of the folks in the isolated 
communities are being really resilient and they are not 
choosing to come to the areas where food and water is.
    So, the bottom line is I feel certain that this is probably 
one of the largest humanitarian missions that we have ever 
conducted in the United States, and there are 10 of millions of 
meals and water that were pushed, and there is a lot of assets 
on there.
    I have also asked the Office of Inspector General (OIG) to 
look into how our commodities were being used by some of the 
mayors as well, and it is my understanding that the FBI may be 
looking at that as well.
    Senator Peters. Well, I appreciate your candor. I know this 
was an incredibly difficult task that you were involved in and 
continue to be involved in, probably for quite some time, and I 
appreciate your efforts on that. And, you have been very candid 
in this hearing today, and that is refreshing to have that kind 
of candor because the idea is that we have to learn--celebrate 
what we did right and learn from our mistakes to be ready for 
the future. But what would be your assessment in Puerto Rico on 
a scale of 1 to 10, in your expert capacity, as to FEMA's 
ability to meet the disaster?
    Mr. Long. Well, I think we have a lot of work to do. One of 
the first things I want to do is come back and have an after-
action. I want to figure out the grant funding that went to 
Puerto Rico. What did we get in return of that? I want to make 
sure that--the commodity capabilities that are on the island 
are obviously too small. How do we set up island territories to 
be more self-sufficient, that it does not require a massive DOD 
mission to be able to fly these things in? There are a whole 
host of improvements that need to be made, and I recognize 
that. I will be dedicated to making sure that we find out and 
do an exhaustive after-action, and if there are issues where I 
need to send in support, I will be definitely coming back to 
you to ask for that support to change the way that we do 
business in the future.
    Trust me, I do not want to go through this event again as 
much as anybody else.
    Senator Peters. Right. Well, and I asked the 1 to 10. That 
may be tough for you to do, but perhaps for the average Puerto 
Rican, how would they rate the Federal Government's response? 
You have been on the ground an awful lot. I appreciate that. 
From 1 to 10, what do you think they would say?
    Mr. Long. Senator, with all due respect, obviously people 
have different experiences. I am not interested in giving 
myself a grade or rating each other. Quite honestly, that would 
be the only thing that the media picked up today in this 
congressional hearing if that is the case. Could we have done 
better? Did we move as fast as people want? Obviously, in some 
cases no. But, if you look in the Miami Herald this morning, 
the State Department representative, Luis Rivera, read his 
assessment, and go talk to the 78 mayors, all of them, and get 
your assessment from them, please, because for me to sit back 
and say we did things perfectly, I know we did not. Of course, 
there are things that I wish had gone better, or things that I 
had known going into that event, obviously. But, the bottom 
line is that I know at the end of the day we pushed as hard as 
we could, our partners pushed as hard as we could, and we moved 
as fast as the situation allowed. And, this is one of the most 
logistically complex disasters that this Nation has faced.
    Senator Peters. You mentioned talking to local mayors. 
Actually, that leads into the second question I have. As you 
know, Isabella County and Midland County, Michigan, experienced 
some catastrophic flooding this summer, one of the long list of 
issues that you had that were on your plate this year. And, I 
heard from county administrators, emergency responders, as well 
as impacted constituents in general that they were very 
appreciative of the work that FEMA did to help them in 
responding to that flooding.
    But that said, they also thought that FEMA could have done 
a much better job of coordinating with local officials at the 
beginning of their response efforts. And, in our experience, I 
think as you mentioned, up-front coordination with local 
authorities can go a long way to facilitating that kind of 
response. But, that is what I heard from my folks in Michigan, 
although, again, being supportive of your efforts, but thinking 
that that was a lack in FEMA's efforts, was the local 
coordination with local officials.
    What do you think we should be doing to better that type of 
cooperative effort?
    Mr. Long. Personally, I would like to expand our footprint. 
I would like to change our footprint and graduate beyond the 
regional offices. I would like to develop what we call ``State 
Integration Teams'' that are multifaceted, that are there 
working with the State every day and being able to drive out to 
your local counties and doing things such as approving 
mitigation plans, without having it to come all the way back 
through the region or up to headquarters. I would like to 
change the workforce. I would like to make our reservist cadre 
more in line with what the National Guard approach is, so that 
you can have a full-time job, step away from your job to go 
support FEMA in a disaster without losing that daytime job.
    I would like to change our entire workforce program to be 
more like an FBI model. We are the only public safety agency in 
the country that does not have a true academy-style model of 
hiring and graduating people through our system so that we are 
training everybody to be the next Federal Coordinating Officer 
that understands all aspects of this program. I am frustrated 
by our hiring processes. I would like to rewrite the book on 
how we do that and how we maintain and utilize disaster 
reservists who are critically important to our mission.
    Senator Peters. I think those are all really good thoughts. 
I look forward to working with you on those issues going 
forward. Thank you, Mr. Long.
    Chairman Johnson. Thank you, Senator Peters.
    One of the concerns I have, just kind of listening to some 
of the dialogue here, is I do not want to see FEMA be the 
primary responder here. I believe their role is to support 
State and local governments, to support them. And, the more we 
expect out of FEMA, first of all, we are going to spread them 
thinner, and now you are going to have, again, a one-size-fits-
all model, and it is going to be the Federal Government that is 
going to have to decide where all these assets have to be 
deployed ahead of time. States and local governments need to 
understand that. They need to understand their risks. They need 
to be held responsible as well.
    And so, I think we need to be very careful as we go down 
this road and say, ``Well, how come FEMA did not do the job 
perfectly, and listen to people's complaints,'' oh, they did 
not coordinate quite as well as we would like to. Again, it is 
to help them. FEMA's role is to help, to be subordinate to 
that. I think that is incredibly important.
    I have only got one other point I want to make, because it 
was pretty interesting talking to you, Administrator Long. We 
have so much foodstuffs and water to a certain extent down in 
Puerto Rico. You pointed out the fact that the private sector 
is now asking you. We need to reestablish ourselves. If our 
population is going to rely on FEMA and the Federal Government 
to provide meals, we are not going to have the private sector 
firing back up and have grocery stores operating properly.
    Can you just kind of talk about what----
    Mr. Long. Sure, you are absolutely right. So, the goal is 
always to get the retail industry back up and running, and the 
last number I saw was roughly 90 percent. Obviously, as the 
retail industry comes up, we should be drawing down on the 
commodity mission. In many cases the mayors have asked us to 
stop the flow of food, but continue the water deliveries until 
the water system is fully back online.
    So, it is a constant communication battle every day--or not 
battle. It is just constant good communication every day with 
the mayors to understand what the need is, where the private 
sector market is. But, as we go forward, I do think that we 
have to form tighter bonds with the private sector and 
understand the modeling to see this not only in Puerto Rico but 
in California or Florida or Texas to say here is where the 
market is, here is where the gas stations are coming back 
online so that we can tailor the response day in and day out.
    Chairman Johnson. I think your name describes what your 
function is: Federal Emergency Management Agency. It is not 
Federal recovery. It is not long-term recovery. That is going 
to be other Federal Agencies, but hopefully more State and 
local governments are going to really take up the 
responsibility of recovering in their local jurisdictions.
    With that, Senator Carper.
    Senator Carper. Just to follow on what the Chairman is 
saying, the last 100 years, 33 Category 5 hurricanes; this 
fall, 2 within a matter of weeks of one another. We have seen 
this very interesting chart, very instructive chart that the 
Chairman has shown that indicates what is happening in terms of 
the frequencies of this kind of crazy weather that we are faced 
with. And, this is a shared responsibility. But, I would feel 
that we had failed in our responsibilities collectively if we 
simply help rebuild an electric grid in Puerto Rico that is 
just as vulnerable, that is just as energy inefficient, and 
that is just as polluting as what they largely have faced in 
past decades. I think we would have really missed an 
opportunity.
    My colleague Senator Peters asked you, Mr. Long, to 
evaluate or maybe provide a grade of some sort to the work of 
FEMA so far. We have a saying in Delaware, when a little 
fighter is fighting a big fighter and wins, we say that the 
little fighter fights above his or her weight. And, I think 
FEMA is punching above its weight, and we applaud that. I think 
the grade to be assigned is probably ``incomplete'' because 
there is plenty of work still to do, and I think you know that.
    Richard Nixon used to--I am the only Democrat I know that 
quotes Richard Nixon, but Nixon used to say, ``The only people 
who do not make mistakes are people who do not do anything.'' 
Think about that.
    Tom Carper always says, ``Everything I do, I know I can do 
better, and if it is not perfect, make it better.'' So, that is 
our goal. We know perfection is probably not achievable, but we 
certainly want to head in that direction regardless of whether 
you sit on this side of the dais or your side.
    Senator Peters also talked about the interaction and 
interface between State and local folks and FEMA, and this will 
be one short question for you, Administrator Long. There has 
been some feedback that there has been a disconnect between the 
Government of Puerto Rico, FEMA, the Army Corps of Engineers, 
and various contractors on the ground regarding roles and 
responsibilities, who is doing what activity. I do not think 
that is totally surprising. But, what are you doing to ensure 
that a cohesive effort that supports the Governor of Puerto 
Rico who is ultimately in charge of recovery efforts? Would you 
just respond to that?
    Mr. Long. Sure. It is a great question. So, clear 
communication is what is needed to succeed, and I speak to 
Governor Rossello multiple times a week on a regular basis. 
But, what we do, obviously, to have wide area management 
capability over the magnitude of everything that has happened 
is I have to rely very heavily on Federal Coordinating 
Officers. For the example of Puerto Rico, Mike Byrne is my 
Federal Coordinating Officer. Technically, he is appointed by 
the President, if you look at the Stafford Act. And so, I have 
Federal Coordinating Officers over each one of these disasters 
that I stay in touch with, but I also reach out very regularly 
to Governor Rossello. I have to tell you, every day that man 
goes to work trying to do the best that he can for Puerto Rico, 
and I have deep respect for the Governor and what he is trying 
to do and work through. He is facing the most complex disaster 
of many of them.
    So, the communication is good, but I have to set up 
recovery command onsite and allow the decisions to be made 
onsite rather than all the way back up here in D.C. Incident 
command decisions have to be made closest to where the disaster 
is, not up here.
    Senator Carper. Sometimes when I see adult children of my 
friends who have gone on to do great things in their life, I 
say they picked the right parents. And, I would say to Rick 
Rossello, the Governor now, that he picked the right parents--
my old colleague Pedro Rossello, with whom I served from 1993 
to 2001 as Governor.
    I want to ask one question for each of you, and then I am 
done. But, the question is this: Just name one thing, each of 
you just name one thing that folks on my side of the aisle, 
those with whom we serve here in the Senate and the House, one 
thing that we need to be doing to enable you and your folks to 
do a better job. Just one thing, please. And, we will just 
start, if I can, with Dr. Kadlec. Are you an Air Force Academy 
graduate?
    Dr. Kadlec. Yes, sir, I am.
    Senator Carper. Navy salutes Air Force. Good for you.
    Dr. Kadlec. You beat us at football, though.
    Senator Carper. Thank you for your service.
    Dr. Kadlec. Thank you, sir. I think one of the issues that 
came up was about streamlining processes in effect and 
activities. For the health care, we talk about minutes and 
hours, really depending life-and-death decisions, and being 
able to intervene positively. And, I think one of the areas 
that Congress should look at is dependencies. Dependencies 
affect all the activities here. What makes it more streamlined? 
What makes it more efficient? What makes it, most importantly, 
more effective? And, those are the areas that I would identify 
as most important.
    Senator Carper. OK. Thank you. General Jackson.
    General Jackson. Senator, thank you for the question. Since 
we have spoken mostly about the power grid restoration, I think 
that is where my comment would come from, and that is, I think 
if Congress can decide what end state looks like, there are 
multiple requirements that could be out there, multiple things 
that could be done. They all cost different amounts of money. 
But, what does end state look like, and what does the Nation 
want us to do, whether it is what the Corps is doing or what 
whoever will do in terms of, what the power generation will 
look like, what the transmission lines and such will look like. 
Being able to craft what end state looks like with the 
resources to match would be my recommendation.
    Senator Carper. Good. Thank you so much.
    Mr. Salesses. Senator, thank you for the question. I would 
say continue to support the men and women in uniform. 
Specifically, the Defense Department did enormous work in all 
of these hurricanes. As you know, the number of Navy ships, the 
strategic airlift that was involved in this, the Army, Navy, 
Air Force, and Marine Corps, Active, Reserve, and Guard, that 
made a huge difference in each one of these hurricanes. The 
Defense Department has evolved greatly in that responsibility 
of supporting civil authorities, and that needs to continue 
because it makes all the difference to our citizens.
    Senator Carper. When I am talking with folks from different 
armed services other than the Navy, sometimes I will--there is 
a friendly inter-service rivalry, as you know, not just on the 
football field. But, I always say to them at the end of those 
conversations, ``Different uniforms, same team.'' And, it is a 
great team. Administrator Long.
    Mr. Long. Externally, for the entire country, I think 
survivable communications is something that we have to address 
with the private sector. We become more and more vulnerable 
every day as we go to digital networks, and when you do not 
have redundant systems or mitigated systems designed to handle 
all hazards, then it creates panic. As we have seen, we 
basically just went through a complete and total communication 
blackout for an island, and it created a lot of panic, a lot of 
misunderstanding, a lot of misinformation. That was incredibly 
frustrating. So, I think we have a lot of work to do for 
survivable comms.
    Internally, fix the NFIP, do more pre-disaster mitigation, 
and let us come back to the drawing board on the Disaster 
Relief Fund (DRF).
    Senator Carper. Thank you to all of you and the teams you 
lead. Thank you so much.
    Mr. Long. Thank you.
    Chairman Johnson. Thank you.
    So, my final comment, I appreciate my colleagues like this 
chart. There are a number of factors that are built into the 
dramatic increase in the FEMA declarations. One of them is just 
that we declare more disasters a FEMA disaster. And, my concern 
is that--I will not say the word ``abdication,'' but certainly 
local and State authorities are happy to have the Federal 
Government spend their money and be responsible for a greater 
share of these things that are occurring within their States. 
That is part of the factor here.
    But, again, I want to thank all of you. I think your 
efforts have been extraordinary. I would give you a pretty high 
grade, personally. Again, this is unprecedented what had 
happened here. You get 51 inches in any place, there is no way 
to plan for that. That is going to create a lot of destruction. 
You get Category 5 hurricanes going over an entire island, even 
one that is in the Caribbean that is used to hurricanes, that 
is going to cause a disaster. You just do not snap your fingers 
and alleviate all pain and suffering.
    So, again, I think the men and women that have worked with 
you have done an extraordinary job, and I thank all of them and 
I thank all of you.
    With that, this hearing record will remain open for 15 
days, until November 15th at 5 p.m., for the submission of 
statements and questions for the record. This hearing is 
adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------    
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                 <all>
</pre></body></html>
